<html>
<title> - LEGAL WORKFORCE ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                          LEGAL WORKFORCE ACT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1772

                               __________

                              MAY 16, 2013

                               __________

                           Serial No. 113-11

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
80-974                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83e4f3ecc3e0f6f0f7ebe6eff3ade0eceead">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                     TED POE, Texas, Vice-Chairman

LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
MARK AMODEI, Nevada                  JOE GARCIA, Florida
RAUL LABRADOR, Idaho                 PEDRO R. PIERLUISI, Puerto Rico
GEORGE HOLDING, North Carolina

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 16, 2013

                                                                   Page

                                THE BILL

H.R. 1772, the ``Legal Workforce Act''...........................   205

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security................................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Member, Subcommittee on Immigration and 
  Border Security................................................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     4
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary    10

                               WITNESSES

Angelo I. Amador, Sr., Vice President, Labor and Workforce 
  Policy, National Restaurant Association
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
Jill G. Blitstein, International Employment Manager, Human 
  Resources, North Carolina State University
  Oral Testimony.................................................    39
  Prepared Statement.............................................    42
Julie Myers Wood, President, Compliance, Federal Practice and 
  Software Solutions, Guidepost Solutions LLC
  Oral Testimony.................................................    46
  Prepared Statement.............................................    48
Dominick Mondi, Executive Director, New Jersey Nursery and 
  Landscape Association
  Oral Testimony.................................................    59
  Prepared Statement.............................................    61

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Lamar Smith, a Representative 
  in Congress from the State of Texas, and Member, Subcommittee 
  on Immigration and Border Security.............................     6
Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................     7
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................     8
Material submitted by the Honorable Steve King, a Representative 
  in Congress from the State of Iowa, and Member, Subcommittee on 
  Immigration and Border Security................................    80
Material submitted by the Honorable Trey Gowdy, a Representative 
  in Congress from the State of South Carolina, and Chairman, 
  Subcommittee on Immigration and Border Security................   183

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................   195
Letter from R. Bruce Josten, Executive Vice President, Government 
  Affairs, Chamber of Commerce of the United States of America...   197
Prepared Statement of the Food Manufacturers' Immigration 
  Coalition......................................................   198
Prepared Statement of the American Meat Institute (AMI)..........   199
Letter from James W. Tobin, III, Senior Vice President & Chief 
  Lobbyist, National Association of Home Builders (NAHB).........   204


                          LEGAL WORKFORCE ACT

                              ----------                              


                         THURSDAY, MAY 16, 2013

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:16 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Trey 
Gowdy (Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Poe, Smith, King, Jordan, 
Amodei, Holding, Goodlatte, Lofgren, Jackson Lee, Gutierrez and 
Garcia.
    Staff Present: (Majority) Andrea Loving, Counsel; Graham 
Owens, Clerk; and (Minority) Tom Jawetz, Counsel.
    Mr. Gowdy. We will now move to our legislative hearing on 
H.R. 1772, the ``Legal Workforce Act.''
    The Subcommittee on Immigration and Border Security will 
come to order. Without objection, the Chair is still authorized 
to declare recesses of the Committee at any time.
    We welcome all of our witnesses. I will introduce our 
witnesses properly here in just a moment, but for now I will 
recognize myself for a brief opening statement.
    Today this Subcommittee holds legislative hearings on bills 
that can, if implemented, substantially affect U.S. Immigration 
policy in a positive way. The first hearing is on H.R. 1772, 
the ``Legal Workforce Act,'' which requires all U.S. employers 
to use E-Verify to verify the work eligibility of their 
employees.
    Because the desire for employment is one of the--if not 
the--largest incentives for illegal immigration to the United 
States, we must help ensure employers have appropriate and 
workable tools to verify a legal workforce.
    I know Chairman Goodlatte and past-Chairman Smith and 
others have worked tirelessly on this issue, and I am pleased 
to yield the remainder of my time to the gentleman from Texas, 
the past Chairman, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. And I very much 
appreciate your yielding me your time.
    The Legal Workforce Act is bipartisan legislation that 
shuts off the jobs magnet attracting illegal immigrants to the 
United States. The bill expands the E-Verify system and makes 
it mandatory for all U.S. employers. Twenty-three million 
Americans are unemployed or underemployed. Meanwhile 7 million 
people are working in the United States illegally. These jobs 
should go to American citizens and legal workers.
    H.R. 1772 could open up millions of jobs for unemployed 
Americans by requiring all employers to use E-Verify. The E-
Verify system is quick and effective, confirming 99.7 percent 
of work-eligible employees. Recent data shows that 
approximately 451,000 American employers voluntarily use E-
Verify, and an average of 1,600 new businesses sign up each 
week. The program is free, quick and easy to use. In fact, this 
Subcommittee heard testimony in February from the Department of 
Homeland Security that E-Verify can now be used by smartphones.
    You have to show your Social Security number to visit the 
doctor, go to the bank or buy a home. It makes sense that 
businesses would use the same identification to ensure they 
have a legal workforce by checking the legal status of their 
employees.
    The Legal Workforce Act requires that all U.S. employers 
use E-Verify to check the work eligibility of new hires in the 
U.S. The verification is phased in depending on the size of the 
employer's business; up to 2 years, for example, to provide 
additional time for smaller businesses and agriculture.
    H.R. 1772 balances immigration enforcement priorities and 
legitimate employer concerns. It gives employers a workable 
system under which they cannot be held liable if they use the 
system in good faith. The bill prevents the patchwork of State 
E-Verify laws, but retains the ability of States and localities 
to condition business licenses on the use of E-Verify. In 
addition, H.R. 1772 allows States to enforce the Federal E-
Verify requirement if the Federal Government fails do so.
    The Legal Workforce Act increases penalties on employers 
who knowingly violate the requirements of E-Verify, and imposes 
criminal penalties on employers and employees who engage in or 
facilitate identity theft.
    The bill creates a fully electronic employment eligibility 
verification system, and it allows employers to voluntarily 
check their current workforce if done in a nondiscriminatory 
manner.
    Furthermore, the Legal Workforce Act gives USCIS additional 
tools to help prevent identity theft. For example the bill 
allows individuals to lock their own Social Security number so 
that it cannot be used by imposters to verify work eligibility. 
The legislation also allows parents to lock the Social Security 
number of their minor child to prevent identity theft, and if a 
Social Security number shows unusual multiple uses, the Social 
Security Administration locks the number for employment 
verification purposes and notifies the owner that their 
personal information may be compromised.
    Studies by Westat on error rates in the cost of E-Verify 
have been mentioned at prior hearings. That study utilized old 
data and failed to address the provisions aimed at preventing 
identity theft that I mentioned above and which are in the bill 
today.
    In regard to cost this Subcommittee heard testimony earlier 
this year that discredited the study because it amplifies 
higher numbers by 25 percent by counting internal promotions 
and transfers. Many of these critics fail to point out that 
other studies reveal that three-quarters of employers stated 
that the cost of using E-Verify is zero.
    Equally important, the American people support E-Verify. A 
2011 Rasmussen poll found that 82 percent of likely voters 
``think businesses should be required to use the Federal 
Government's E-Verify system to determine if a potential 
employee is in the country legally.''
    Unfortunately many States do not enforce their own E-Verify 
laws, and others only apply E-Verify in a very limited way. The 
Legal Workforce Act will help ensure that employers from every 
State are on an equal footing when it comes to hiring 
employees. This bill is a commonsense approach to deterring 
illegal workers that could open up millions of jobs for 
unemployed and underemployed Americans.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. I thank the gentlemen from Texas.
    The Chair would now recognize the gentlelady from 
California, the Ranking Member of the Subcommittee, Ms. 
Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Few issues have received as much attention before this 
Subcommittee in recent years as E-Verify. In the last Congress 
we held three hearings on the electronic employment eligibility 
verification system, and the Committee marked up the Legal 
Workforce Act. In this Congress we have already held one 
hearing on E-Verify and will today examine Congressman Smith's 
new version of the Legal Workforce Act.
    At the outset let me note that the new version of the bill 
we are considering today contains several improvements over the 
version offered in the last Congress, and I want to recognize 
the bill's sponsor for responding to some of the concerns 
raised at that time. For instance, when we marked up the Legal 
Workforce Act in the 112th Congress, the bill exempted 
returning seasonal farm workers from having to be verified upon 
hire. This gigantic loophole came under attack from all sides. 
From the right it was attacked as amnesty; from the left it was 
attacked as an admission that E-Verify alone would destroy our 
agricultural industry and the millions of jobs held by U.S. 
workers that are supported by that industry. The Committee 
struck this provision from the bill during markup, and I am 
glad to see it is omitted from this version.
    The bill in the last Congress also created new criminal 
penalties for unlawful conduct that were excessive and 
wasteful. In addition to imposing multiple mandatory minimum 
prison terms, the bill made it a felony punishable by up to 15 
years in prison for a person to use a Social Security number 
that did not belong to him or her during the employment 
verification process. Although this version of the bill still 
creates one mandatory minimum prison term, it contains a number 
of improvements in the criminal provisions pertaining to fraud 
and misuse of documents.
    And finally this version contains some changes designed to 
make E-Verify a little less unworkable for the Social Security 
Administration, which obviously serves a number of other 
critically important functions.
    Having said that, today's bill still contains several of 
the greatest flaws of the bill we considered in the last 
Congress. It continues to provide no meaningful due process 
protections for authorized workers, including U.S. citizens, 
who may lose their jobs because of erroneous final 
nonconfirmations.
    The idea that Americans and authorized immigrants will lose 
their jobs as a result of this bill is not simply theoretical. 
Although we know that the government continues to work hard to 
reduce error rates in E-Verify, errors absolutely still exist. 
Under this bill people would lose their jobs and become 
effectively unemployable for an indeterminate length of time 
because of such government errors, and they would have no 
meaningful recourse.
    The bill also provides no penalties at all for employers 
who violate the requirement that they inform an employee about 
a tentative nonconfirmation and give that employee an 
opportunity to contest the ETNC. The absence of any consequence 
renders the notice requirement completely toothless.
    But let me take a step back, because although I welcome the 
opportunity to discuss how to discuss how to design an 
effective and fair E-Verify system, I believe it is clear that 
we can only do that together with other necessary forums to our 
broken immigration system.
    We could design the best E-Verify system imaginable, a 
system that is easy to use, 100 percent accurate, and available 
at virtually no cost to big and small businesses alike. But if 
we impose that system nationwide and did nothing to fix our 
immigration system, the consequences would be disastrous.
    I won't belabor the point because the issues are so 
familiar to Members of this Subcommittee, and we have witnesses 
who are prepared to testify. I will simply say that without 
top-to-bottom reform of our immigration laws, expanding E-
Verify would devastate the agricultural economy, resulting in 
closed farms, a less secure America, and the mass offshoring of 
millions of U.S. jobs, including the upstream and downstream 
jobs that are created and supported by our agricultural 
industry.
    Expanding E-Verify without more would also cost the 
government significant tax revenues. In 2008, the Congressional 
Budget Office and the Joint Committee on Taxation concluded 
that mandatory E-Verify in Representative Health Shuler's SAVE 
Act would decrease Federal revenues by $17.3 billion over a 10-
year period. Those offices determined that expanding E-Verify 
in an economy with this significant undocumented workforce and 
no way to provide for a legal workforce would drive employers 
and workers off the books and into the underground economy. The 
end result would be lost tax revenues and depressed wages and 
working conditions for all workers, including U.S. workers.
    I believe firmly that E-Verify must play an important role 
in helping to fix our immigration system, so I appreciate the 
proposal by Representative Smith. I thank Chairman Goodlatte 
and Chairman Gowdy for the opportunity to discuss this today. I 
think we have further work to do, but I look forward to the 
testimony of the witnesses, and I yield back.
    Thank you, Mr. Chairman.
    Mr. Gowdy. I thank the gentlelady from California.
    The Chair would now recognize the gentlemen from Michigan, 
the Ranking Member of the full Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    This is an important hearing, and we know that everybody's 
currently focused on the Senate Judiciary's markup of S. 744, 
and that is why we are encouraged by the ongoing efforts by 
Members on both sides of the aisle to forge an agreement on an 
immigration reform bill in the House. That is why the U.S. 
Chamber of Commerce and AFL-CIO were able to come together to 
forge an historic agreement regarding a future temporary 
guestworker proposal. It is why all of the major agricultural 
producers amazingly, including the American Farm Bureau and 
United Farm Workers, joined together to back changes to our 
agricultural guestworker program.
    So I agree that we must talk about E-Verify because it will 
be an important component of comprehensive immigration reform, 
but when we do so, we need to recognize the dangers that 
American workers would face if we were to make E-Verify 
mandatory for all employers without fixing our immigration 
system. I think it is important whenever we talk about E-Verify 
to talk about the real-world actualities.
    Sometimes we hear people say that E-Verify will help 
American workers because every time an undocumented immigrant 
is denied a job, an unemployed American will get hired. That is 
a simple, an appealing proposition, but is probably not 
correct. Immigrants often fill critical gaps in our own 
workforce. Even in this difficult economy, there are entire 
industries that rely upon undocumented immigrants because there 
just aren't enough Americans around willing to do the work.
    Just look at how mandatory E-Verify would affect 
agriculture. Fifty to seventy-five percent of farm workers are 
undocumented. Losing these workers would obviously be 
devastating. Fruits and vegetables would rot in fields, and 
American farms would go under, and we would see a mass 
offshoring of jobs, including millions of upstream and 
downstream American jobs supported by agriculture.
    An earlier witness at a hearing testified that some farms 
could survive by shifting to different crops. Now, that is 
really one for the books, crops that are not labor intensive. 
The majority of all lettuce in this country apparently comes 
from one county in California. Lettuce farmers may well be able 
to find a different crop to grow, but let us be clear about 
what it means. Virtually all our lettuce from now will be 
imported from another country. The same is true for tomatoes, 
flowers, strawberries. The list goes on and on.
    I look forward to hearing from our distinguished witnesses, 
and I hope they will comment on some of my observations. We 
need to understand the strengths and weaknesses of the Smith 
legislative proposal, and in doing so I hope that they each 
take some time to talk about whether they think it would be a 
good or bad thing for America and our workers if Congress made 
E-Verify mandatory nationwide without simultaneously fixing our 
broken immigration system.
    So we talk about, I conclude, comprehensive reform: One, 11 
million people on the path to an earned legal status; two, and 
most importantly, modernizing the flow of future immigrants so 
it works for both businesses and families; and three, improved 
enforcement, including E-Verify, but not on its own.
    Thank you, Mr. Chairman for allowing my statement.
    Mr. Gowdy. I thank the gentleman from Michigan.
    Without objection, all the Members' opening statements will 
be made part of the record.
    [The prepared statement of Mr. Smith follows:]

 Prepared Statement of the Honorable Lamar Smith, a Representative in 
     Congress from the State of Texas, and Member, Subcommittee on 
                    Immigration and Border Security

    The Legal Workforceq Act is bipartisan legislation that shuts off 
the jobs magnet attracting illegal immigrants to the United States. The 
bill expands the E-Verify system and makes it mandatory for all U.S. 
employers.
    Twenty-three million Americans are unemployed or under employed. 
Meanwhile, seven million people are working in the United States 
illegally. These jobs should go to American citizens and legal workers.
    H.R. 1772 could open up millions of jobs for unemployed Americans 
by requiring all employers to use E-Verify. The E-Verify system is 
quick and effective, confirming 99.7% of work-eligible employees. 
Recent data shows that approximately 451,000 American employers 
voluntarily use E-Verify and an average of 1,600 new businesses sign up 
each week.
    The program is free, quick and easy to use. In fact, this 
subcommittee heard testimony in February from the Department of 
Homeland Security that E-Verify can now be used via smart phones.
    You have to show your Social Security Number to visit the doctor, 
go to the bank, or buy a home. It makes sense that businesses would use 
the same identification to ensure they have a legal workforce by 
checking the legal status of their employees.
    The Legal Workforce Act requires that all U.S. employers use E-
Verify to check the work eligibility of new hires in the U.S. The 
verification is phased-in depending on the size of the employer's 
business--up to two years to provide additional time for smaller 
businesses and agriculture.
    H.R. 1772 balances immigration enforcement priorities and 
legitimate employer concerns. It gives employers a workable system 
under which they cannot be held liable if they use the system in good 
faith.
    The bill prevents a patchwork of State E-Verify laws but retains 
the ability of states and localities to condition business licenses on 
the use of E-Verify. In addition, H.R. 1772 allows states to enforce 
the federal E-Verify requirement if the federal government fails to do 
so.
    The Legal Workforce Act increases penalties on employers who 
knowingly violate the requirements of E-Verify and imposes criminal 
penalties on employers and employees who engage in or facilitate 
identity theft. The bill creates a fully electronic employment 
eligibility verification system. And it allows employers to voluntarily 
check their current workforce if done in a non-discriminatory manner.
    Furthermore, the Legal Workforce Act gives USCIS additional tools 
to help prevent identity theft. For example, the bill allows 
individuals to lock their own Social Security Number so that it cannot 
be used by imposters to verify work eligibility. The legislation also 
allows parents to lock the Social Security Number of their minor child 
to prevent identity theft. And if a Social Security Number shows 
unusual multiple uses, the Social Security Administration locks the 
number for employment verification purposes and notifies the owner that 
their personal information may be compromised.
    Studies by Westat on error rates and the cost of E-Verify have been 
mentioned at prior hearings. That study utilized old data and failed to 
address the provisions aimed at preventing identity theft that I 
mentioned above and which are in the bill today. In regard to cost, 
this subcommittee heard testimony earlier this year that discredited 
the study because it amplifies hire numbers by 25% by counting internal 
promotions and transfers. Many of these critics fail to point out that 
other studies reveal that three-quarters of employers stated the cost 
of using E-Verify is zero ($0).
    Equally important, the American people support E-Verify. A 2011 
Rasmussen poll found that 82% of likely voters ``think businesses 
should be required to use the federal government's E-Verify system to 
determine if a potential employee is in the country legally.''
    Unfortunately, many states do not enforce their own E-Verify laws 
and others only apply E-Verify in a very limited way. The Legal 
Workforce Act will help ensure that employers from every state are on 
equal footing when it comes to hiring employees.
    This bill is a common sense approach to deterring illegal workers 
that could open up millions of jobs for unemployed Americans.
                               __________

    [The prepared statement of Ms. Lofgren follows]:

 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                   on Immigration and Border Security

    Few issues have received as much attention before this Subcommittee 
in recent years as E-Verify. Last Congress we held three hearings on 
the electronic employment eligibility verification system and the 
Committee marked up the Legal Workforce Act. In this Congress we have 
already held one hearing on E-Verify and will today examine Rep. 
Smith's new version of the Legal Workforce Act.
    At the outset, let me note that the version of the bill we are 
considering today contains several improvements over the version 
offered in the last Congress and I want to recognize the bill's sponsor 
for responding to some of the concerns raised at that time.
    For instance, when we marked up the Legal Workforce Act in the 
112th Congress, the bill exempted returning seasonal farmworkers from 
having to be verified upon hire. This giant loophole came under attack 
from all sides. From the right, it was attacked as amnesty and from the 
left it was attacked as an admission that E-Verify alone would destroy 
our agricultural industry and the millions of jobs held by U.S. workers 
that are supported by that industry. The Committee struck this 
provision from the bill during markup and I am glad to see it is 
omitted from this version.
    The bill in the last Congress also created new criminal penalties 
for unlawful conduct that were both excessive and wasteful. In addition 
to imposing multiple mandatory minimum prison terms, the bill made it a 
felony punishable by up to 15 years in prison for a person to use a 
social security number that did not belong to him or her during the 
employment verification process. Although this version of the bill 
still creates one mandatory minimum prison term, it contains a number 
of improvements to the criminal provisions pertaining to fraud and 
misuse of documents.
    Finally, this version contains some changes designed to make E-
Verify a bit less workable for the Social Security Administration, 
which obviously serves a number of other critically important function.
    Having said that, today's bill still contains several of the 
greatest flaws of the bill we considered in the last Congress.
    It continues to provide no meaningful due process protections for 
authorized workers--including U.S. citizens--who lose their jobs 
because of erroneous final non-confirmations. The idea that Americans 
and authorized immigrants will lose their jobs as a result of this bill 
is not simply theoretical. Although we know that the government 
continues to work hard to reduce error rates in E-Verify, errors 
absolutely still exist. Under this bill, people would lose their jobs 
and become effectively unemployable for an indeterminate length of time 
because of such government errors and they would have no meaningful 
recourse.
    The bill also provides no penalties at all for employers who 
violate the requirement that they inform an employee about a tentative 
nonconfirmation and give that employee an opportunity to contest the 
TNC. The absence of any consequences renders the notice requirement 
completely toothless.
    But let me take a step back, because although I welcome the 
opportunity to discuss how to design an effective and fair E-Verify 
system, I believe it is clear that we can only do that together with 
other necessary reforms to our broken immigration system. We could 
design the best E-Verify system imaginable--a system that is easy to 
use, 100% accurate, and available at virtually no cost to big and small 
businesses alike. But if we imposed that system nationwide and did 
nothing to fix our broken immigration system the consequences would be 
disastrous.
    I will not belabor the point, because the issues are already so 
familiar to Members of this Subcommittee and we have witnesses who are 
prepared to testify. I will say simply that without top-to-bottom 
reform of our immigration laws, expanding E-Verify would devastate the 
agricultural economy, resulting in closed farms, a less-secure America, 
and the mass off-shoring of millions and millions of U.S. jobs, 
including all of the upstream and downstream jobs that are created and 
supported by our agriculture industry.
    Expanding E-Verify without more would also cost the government 
significant tax revenues. In 2008, the Congressional Budget Office and 
the Joint Committee on Taxation concluded that mandatory E-Verify in 
Rep. Heath Shuler's SAVE Act would decrease federal revenues by $17.3 
billion over a 10-year period. Those offices determined that expanding 
E-Verify to an economy with a significant undocumented workforce would 
drive employers and workers off-the-books and into the underground 
economy.
    The end result would be lost tax revenues and depressed wages and 
working conditions for all workers, including U.S. workers.
    I believe firmly that E-Verify must play an important role in 
helping to fix our immigration system, so I appreciate the proposal by 
Rep. Smith and I thank Chairman Goodlatte and Chairman Gowdy for the 
opportunity to discuss this today.
    I look forward to the testimony of the witnesses.
                               __________

    [The prepared statement of Mr. Conyers follows:]

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
 in Congress from the State of Michigan, and Ranking Member, Committee 
                            on the Judiciary

    At the Judiciary Committee's first hearing in this Congress, we 
discussed opportunities for legal immigration as well as enforcement of 
the law against undocumented immigrants. It became clear early on that 
pretty much everyone on the Committee agreed that our immigration 
system is broken.
    So what can we do to fix it? For years, some people have argued 
that we only need to enforce the laws that are on the books. Last 
Congress, we spent more time talking only about expanding E-Verify--
three hearings and a Committee markup--than we spent on any other 
topic. Already in this Congress we have held one hearing on E-Verify, 
so today's hearing makes it two.
    Based on everything I have heard, I am hopeful that we have begun 
to turn the corner. I believe there is genuine interest in Congress 
from Members on both sides of the aisle to help us achieve a real 
solution to our broken immigration system and I look forward to working 
with Chairman Goodlatte and Chairman Gowdy to get the job done.
    So what does a real solution look like? For starters, it means we 
cannot return to proposals that rely solely upon enforcement of our 
broken system. Let me be clear. No one argues that we should stop 
enforcing our immigration laws. But enforcement without reform will 
promote a race to the bottom that only hurts the American worker. If we 
fix our broken immigration system, however, we can help American 
workers and grow our economy.
    That is why everyone right now is focused on the Senate Judiciary 
Committee's markup of S. 744, the ``Border Security, Economic 
Opportunity, and Immigration Modernization Act.'' And that is why 
everyone is encouraged by the ongoing efforts by Members on both sides 
of the aisle to forge an agreement on an immigration reform bill in the 
House.
    That is why the U.S. Chamber of Commerce and the AFL-CIO were able 
to come together to forge an historic agreement regarding a future 
temporary guestworker proposal.
    That is why all of the major agricultural producers--including the 
American Farm Bureau--and the United Farmworkers joined together to 
back changes to our agricultural guestworker programs.
    So I agree that we must talk about E-Verify, because it will be an 
important component of Comprehensive Immigration Reform. But when we do 
so we need to recognize the dangers that American workers would face if 
we were to make E-Verify mandatory for all employers without also 
fixing our immigration system.
    I think it is important whenever we talk about E-Verify to talk 
about the real world. Sometimes we hear people say that E-Verify will 
help American workers because every time an undocumented immigrant is 
denied a job, an unemployed American can get hired. That is a pretty 
simple proposition and I see how appealing it is.
    The problem, of course, is that it is completely false. Immigrants 
often fill critical gaps in our own workforce. Even in this difficult 
economy, there are entire industries that rely upon undocumented 
immigrants because there just are not enough Americans willing to do 
the work.
    Just look at how mandatory E-Verify would affect agriculture. 50 to 
75% of farm workers are undocumented. Losing those workers would be 
devastating. Fruits and vegetables would rot in the fields and American 
farms would go under. And we would see a mass off-shoring of jobs, 
including the millions of upstream and downstream American jobs 
supported by agriculture.
    One witness testified at a hearing earlier this year that some 
farms could survive by shifting to different crops. Crops that are not 
as labor-intensive. But my friend Mr. Darryl Issa explained the 
problems with that answer.
    The majority of all lettuce in this country apparently comes from 
one county in California. Lettuce farmers may well be able to find a 
different crop to grow, but let's be clear about what that means. 
Virtually all of our lettuce from now will be imported from another 
country. The same is true for tomatoes, flowers, strawberries. The list 
goes on and on.
    I look forward to hearing from our witnesses, because we need to 
understand the strengths and weaknesses of Rep. Smith's legislative 
proposal. But in doing so, I hope they each take some time to talk 
about whether they think it would be a good or a bad thing for America 
and American workers if Congress made E-Verify mandatory nationwide 
without simultaneously fixing our broken immigration system.
                               __________

    Mr. Gowdy. We have a distinguished panel of witnesses for 
which we are all grateful. I will begin by swearing you in, and 
then I will introduce you en bloc, and then we will recognize 
each of you for your 5-minute opening statement.
    If you would please stand.
    [Witnesses sworn.]
    Mr. Gowdy. Let the record reflect all witnesses answered in 
the affirmative. You may be seated.
    It is my pleasure to begin by introducing Mr. Angelo 
Amador. Mr. Amador is vice president of labor and workforce 
policy with the National Restaurant Association. He advocates 
on behalf of the National Restaurant Association and its 
members before the U.S. Congress and the executive branch. 
Prior to joining the NRA, Mr. Amador served as the executive 
director in labor, immigration, employment benefits division of 
U.S. Chamber of Commerce, and was an adjunct professor of law 
at George Mason University School of Law. He is a graduate 
Robert H. Smith School of Business at the University of 
Maryland and obtained a master of arts in international 
transactions from George Mason University. He earned his J.D. 
From George Mason University School of Law, graduating cum 
laude.
    Welcome, Mr. Amador.
    Ms. Jill Blitstein is testifying today on behalf of the 
College and University Professional Association for Human 
Resources. She is currently the international employment 
manager at North Carolina State University. Her current 
position involves assisting departments, faculty, and staff 
with immigration and visa issues, and overseeing the employment 
eligibility verification process and compliance procedures at 
NC State University.
    Prior to joining NC State, she was a senior associate at 
the Chicago office of Fragomen, Del Rey, Bernsen & Loewy--and I 
apologize to your former partners if I messed that up, I am 
sure I did--from 1997 to 2007. Ms. Blitstein received her law 
degree from DePaul University College of Law in 1995. I would 
also like to note that she is a constituent of one of our 
Subcommittee's Members, the former distinguished U.S. attorney 
from whichever district that is in North Carolina, Mr. George 
Holding. Welcome, Ms. Blitstein.
    Julie Myers Wood is president of compliance, Federal 
practice and software solutions at Guidepost Solutions, LLC, an 
immigration investigation and compliance firm. She served as 
the Assistant Secretary of DHS Immigration and Customs 
Enforcement for nearly 3 years. Under her leadership the agency 
set new enforcement records with respect to immigration 
enforcement, export enforcement, and intellectual property 
rights. She earned a bachelor's degree and, along with Brittney 
Griner, is probably the most famous graduate of Baylor 
University that I can think of; and earned a J.D. Cum laude 
from Cornell Law School. Welcome, Ms. Wood.
    Mr. Dominick Mondi is executive director of the New Jersey 
Nursery and Landscaping Association, a trade group representing 
horticulture industry in the State. Prior to joining the staff, 
he served on the board of directors of the organization, first 
of all working for a landscape design/build contractor, Doerler 
Landscapes, and later while running his own landscape design 
firm, Mondi Designs. Mr. Mondi serves on the advisory council 
for landscape industry program at Rutgers University, where he 
also graduated with a degree in landscape architecture.
    I will, now that I have hopefully sufficiently introduced 
all of you, ask you to indulge me while I recognize our 
Chairman for his opening statement, and then I promise we will 
go to you for your opening statement.
    The gentleman from Virginia, the Chairman of the Judiciary 
Committee, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. I apologize for 
being late, and I do have a great interest in this issue and 
the hearing and our witnesses, so I apologize to them, but I 
did want to give my opening statement.
    I want to thank you and Congressman Smith for your hard 
work on this legislation.
    The future of immigration reform hinges on assuring the 
American people that our immigration laws will be enforced. In 
the past Americans were promised tougher enforcement in 
exchange for the legalization of those unlawfully in the U.S. 
Succeeding Administrations never kept these promises, and today 
we are left with a broken immigration system.
    One way to make sure we discourage illegal immigration in 
the future is to prevent unlawful immigrants from getting jobs 
in the U.S. Requiring the use of E-Verify by all employers 
across the country will help do just that. The Web-based 
program is a reliable and fast way for employers to 
electronically check the work eligibility of newly hired 
employees. H.R. 1772, the ``Legal Workforce Act,'' builds on E-
verify's success and helps ensure the strong enforcement that 
was promised to the American people many years ago.
    The Legal Workforce Act doesn't simply leave enforcement up 
to the Federal Government; in fact, it actually empowers States 
to help enforce the law, ensuring that we don't continue the 
enforcement mistakes of the past where a President can turn off 
Federal enforcement efforts unilaterally.
    Over 450,000 employers are currently signed up to use E-
Verify. It is easy for employers to use and is effective. In 
fact, as USCIS testified in front of this Committee this past 
February, E-Verify's accuracy rate for confirmation of work 
eligibility is 99.7 percent.
    But the system is not perfect. For instance, in cases of 
identity theft, when an individual submits stolen identity 
documents and information, E-Verify may confirm the work 
eligibility of that individual. This happens because E-Verify 
uses a Social Security number or alien identification number 
and certain other corresponding identifying information, such 
as the name and date of birth of an individual, to determine if 
the Social Security number or alien identification number 
associated with that corresponding information is work 
eligible. Thus, if an individual uses a stolen Social Security 
number, and the real name corresponding with that Social 
Security number, a false positive could occur.
    The Legal Workforce Act addresses identity theft in several 
ways. First, it requires notification to employees who submit 
for E-Verify a Social Security number that shows a pattern of 
unusual multiple use so the rightful owner of the Social 
Security number will know that their Social Security number may 
have been compromised, and once they confirm this, the 
Department of Homeland Security and the Social Security 
Administration must lock that Social Security number so no one 
else can use it for employment-eligibility purposes.
    The bill also creates a program through which parents or 
legal guardians can lock the Social Security numbers of their 
minor children for work-eligibility purposes. This is to combat 
the rise in the number of thefts of children's identities.
    But there are other changes that should also be made. For 
instance, in order to help prevent identity theft, the USCIS 
created and utilizes the photo match tool in which photos from 
green cards, work authorization documents and passports can be 
seen during the use of E-Verify in order to help ensure that 
the person submitting the identity document is, in fact, the 
person who owns that document. But I recently learned that 
USCIS materials regarding the use of E-Verify specifically 
state that a photo displayed in E-Verify should be compared 
with the photo in the document that the employee has presented 
and not with the face of the employee. What good is the photo 
match tool to prevent identity theft if the employer is 
prohibited from matching the photos to the person submitting 
the identity document? This policy is ludicrous, and we will 
look to address it as this legislation moves forward.
    The bill also phases in E-Verify use in 6-month increments 
beginning with the largest U.S. businesses, raises penalties 
for employers who don't use E-Verify according to the 
requirements, allows employers to use E-Verify prior to the 
date they hired an employee, and provides meaningful safe 
harbors for employers who use the system in good faith.
    H.R. 1772 balances the needs of the American people 
regarding immigration enforcement with the needs of the 
business community regarding a fair and workable electronic 
employment verification system.
    I want to continue to work with the business community and 
other stakeholders to address any additional concerns with the 
bill. And I am pleased to be an original cosponsor and look 
forward to the testimony of the witnesses today.
    Again, thank you, Mr. Chairman, thank you former Chairman 
Smith and all who have worked on this legislation, and I yield 
back the balance of my time.
    Mr. Gowdy. I thank the gentlemen from Virginia.
    Each of our witnesses' written statements will be entered 
into the record in its entirety, so I would therefore ask that 
you summarize your statement within 5 minutes so we can have 
the benefit of the answers to your questions as well in a 
timely fashion. To help you stay within that 5-minute time 
parameter, there is a lighting system in front of you, and the 
lights mean what they traditionally mean in life: Green is go, 
yellow means you have a minute left, and red means if you could 
conclude your thought with all deliberate speed, that would be 
wonderful.
    So with that we would welcome all of you again, and, Mr. 
Amador, we will start with you for your opening statement.

 TESTIMONY OF ANGELO I. AMADOR, SR., VICE PRESIDENT, LABOR AND 
       WORKFORCE POLICY, NATIONAL RESTAURANT ASSOCIATION

    Mr. Amador. Thank you. My opening statement, I have 
prepared oral remarks, but after listening to all of you, I am 
going to try to take less than my 5 minutes and just address a 
couple of things.
    For over a decade, you know, I have been working with your 
staff, and with then-Chairman Jackson Lee, and Chairman Smith, 
Chairman Sensenbrenner, Nolan Rappaport, who was the staffer. 
George Fishman would remember all these people. A lot of 
staffers have changed. But we have all worked on an 
unemployment verification title. So the question, there is 
really only one issue.
    I also want to, before I begin, say that I am honored to be 
here before Mr. Pierluisi, who may not remember me, but I 
started my career in D.C. working indirectly under him in his 
days as attorney general, so it is an honor to be here.
    I will use my time instead to say that the only question 
that seems to be before the Committee and before Congress is 
whether we should consider an employment verification system 
being made mandatory by itself, or should it be considered as 
part of a comprehensive immigration reform package?
    When I look at it, you know, and we support pieces of 
immigration because what we want is our immigration system to 
be fixed. So just like we supported DACA, which is the Deferred 
Action for Childhood Arrivals, we support the Legal Workforce 
Act. And the reason is that in the over decade that I have been 
working on programs and unemployment verification, with 
staffers on both sides and with chairmanships from both 
parties, this is by far the best employment verification 
mandate that I have seen from the days of the Daschle-Hagel 
bill in the Senate to the Gang of 8 now.
    So what I would say to the Committee, and that is if you 
don't take anything from the my written testimony and by the 
testimony of others, is that it is upon you to look at 
employment verification title and see if you can improve it. 
And I think that by viewing it by itself, we have had the 
benefit to be able to negotiate and to look at different pieces 
without the disruption of talking about a guestworker program, 
which is also very complicated legalization and all the pieces. 
But it is imperative that we look at the employment 
verification title by itself.
    And again, the only point I want to make is that from all 
the bills that I have been able to submit comments and analyze, 
the Legal Workforce Act is not perfect, but I have not seen any 
perfect law yet, but is by far the best employment verification 
mandate. It is simple; it makes accommodations for small 
businesses, which is something that we have been asking for for 
years; and it creates one set of rules that would be across the 
Nation for all employers.
    And even though, you know, we talk about 11 million on 
legalization as one important piece, I would say that this is 
just as important. This would affect 6 million employers, and 
this would affect how 160 million people get verified to get 
work authorizations. So it is very, very important that these 
pieces get right, and, in our opinion, this is the best 
starting point moving forward.
    Thank you very much.
    Mr. Gowdy. Thank you, Mr. Amador.
    [The prepared statement of Mr. Amador follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Gowdy. Ms. Blitstein.

   TESTIMONY OF JILL G. BLITSTEIN, INTERNATIONAL EMPLOYMENT 
   MANAGER, HUMAN RESOURCES, NORTH CAROLINA STATE UNIVERSITY

    Ms. Blitstein. Chairman Gowdy, Ranking Member Lofgren, and 
honorable Members of the Subcommittee, thank you for this 
opportunity to appear before you today to express support for 
the Legal Workforce Act. I am the international employment 
manager at North Carolina State University. NC State is an 
active member of the College and University Professional 
Association for Human Resources. CUPA-HR represents more than 
1,900 institutions of higher education, 44 percent of which are 
public. I am speaking today on behalf of CUPA-HR.
    My institution has been using E-Verify since January 1 of 
2007, when it was mandated by the State of North Carolina for 
all public employers and the university system. I have 
responsibility for the institution's I-9 and E-Verify process.
    With more than 8,000 regular employees and almost 8,000 
more student workers and temporary employees during the 
academic year, including many foreign nationals, NC State's use 
of the E-Verify process is substantial. I speak to you today as 
someone who has experienced the positive effects of this 
program and found most aspects of it to be administratively 
manageable, as well as someone who might offer some informed 
suggestions as to its implementation by other employers.
    CUPA-HR supports the majority of provisions within the act 
as being positive for both employers and employees. For 
example, we support the reduction in the number of documents 
acceptable to prove identity and work authorization, we support 
recognition of good-faith compliance, and we especially support 
the act's clear preemption of any State or local law on 
employment verification.
    NC State has not experienced the worst-case E-Verify 
scenarios that were circulating several years ago, and in the 6 
years that we have been managing this process, we experienced 
only a handful of cases in which a new hire could not present 
valid documentation or be cleared through the E-Verify process. 
So we believe that process works as intended.
    That said, based on our direct experience, we do have some 
concerns about the proposed time frames for compliance. The act 
would require that within 6 months, all Federal, State and 
local government employers must reverify the employment 
eligibility of all current employees not already in the E-
Verify system. Having verified the entire workforce at NC State 
University, I can tell you with confidence that this is an 
unrealistic time frame to achieve full compliance for large 
public employers.
    Executive Order 12989, as amended in 2008, required Federal 
contractors with contracts containing Federal acquisition 
regulation, or FAR, language to use E-Verify to confirm the 
eligibility of employees working under that contract. NC State 
is a Federal contractor, and we received our first of many of 
FAR contracts in September of 2009. We quickly realized that 
verifying individuals coming and going on FAR contracts could 
be impractical, so we selected the only other alternative, to 
verify our entire workforce, for us meaning every active 
employee hired before January 1st of 2007.
    We had a 6-month time frame to enter 12,000 I-9s into E-
Verify. It actually took us 7 months to fully accomplish this 
goal even after hiring temporary staff. The time and effort by 
my office, my boss and others was significant to achieve 
compliance for 12,000 employees. It was an incredibly intense 
effort, and we have now invested in an electronic system to 
help us manage that process.
    CUPA-HR would strongly encourage a longer phased roll-out 
compliance timeline, particularly for large public employers, 
of 24 months. Additionally, CUPA-HR suggests a longer 
reverification period for employees with limited work 
authorization. The act would require reverification of such 
employees, including many foreign nationals, during 3 business 
days preceding the expiration of their current work 
authorization. As an employer with over 3,000 foreign nationals 
a year on payroll, it is not practical for us to reverify all 
of them within the 3 business days before their authorization 
expires. CUPA-HR supports a reverification time frame of 30 
days.
    Our spring semester just ended at NC State, and the number 
of foreign nationals with May expiration dates is in the 
hundreds. A 3-business-day reverification period not practical 
for employers like us with large numbers of individuals whose 
expiration dates may converge around the same time.
    In closing, I would say that the Legal Workforce Act is a 
balanced approach to creating a more secure and flexible 
employment-eligibility verification system. We respectfully 
encourage the Subcommittee to consider the suggestions we have 
offered today, and I personally thank the Members of the 
Subcommittee for the opportunity to testify.
    Mr. Gowdy. Thank you, Ms. Blitstein.
    [The prepared statement of Ms. Blitstein follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Gowdy. Ms. Wood.

 TESTIMONY OF JULIE MYERS WOOD, PRESIDENT, COMPLIANCE, FEDERAL 
    PRACTICE AND SOFTWARE SOLUTIONS, GUIDEPOST SOLUTIONS LLC

    Ms. Wood. Thank you, Subcommittee Chairman Gowdy, Ranking 
Member Lofgren, Members of the Subcommittee. It is great to be 
before you again, and I appreciate the opportunity to testify 
about H.R. 1772, the ``Legal Workforce Act.''
    As all of you have already stated, these challenges are not 
new. The government has not succeeded in effectively reducing 
the magnet of unlawful employment. Whether we are working to do 
this through civil audits or criminal investigations, the 
government has not found the right mechanisms to compel 
widespread compliance with immigration laws.
    In my view, in attempting to effectively address the magnet 
of unauthorized employment, employers have been unfairly 
saddled with the significant burden related to interior 
enforcement of our immigration laws. I think that the Legal 
Workforce Act takes some very positive steps to equitably 
address these burdens and provide additional tools to 
employers, while ensuring that we will make some progress in 
reducing this magnet.
    I want to highlight just a couple areas where I think the 
bill does an excellent job, and those where--areas where this 
bill may differ a little bit from the bill pending now in the 
Senate.
    First, the bill levels the playing field by requiring 
mandatory employment verification, and does so smartly by 
building on the existing E-Verify framework. It is not 
requiring the creation of a new framework; it is building on 
and using an existing tool. Although a sizable number of 
industry leaders are on E-Verify, and more joining every day, 
in many industries E-Verify participation is still the 
exception rather than the rule. What I often hear from 
employers, particularly in high-risk industries, is that they 
go on E-Verify, but their competitors do not, and that their 
competitors continue to engage in high-risk hiring practices, 
undermining the market. This must change.
    Second, and I think a very critical point, is this bill 
reduces the burden on employers by combining the duplicative 
form I-9 and E-Verify process into one single process. For 
employers this current duplication is particularly problematic 
because they can be fined based on errors in their I-9s even 
though their employees were found to be employment authorized 
through the E-Verify system. An example of such error includes 
a failure of an employee to check a box indicating the 
employee's status even when the employer recorded the 
appropriate documents and the employee went through the E-
Verify system successfully. And even when employers are allowed 
to correct these paperwork errors, they are still spending a 
lot of time and often money to make a piece of paper neat and 
technically accurate for the regulators. Such a focus on the 
technical side of the I-9 really defeats the purpose, and the 
purpose is to ensure that employees are authorized to work.
    Finally, one of the biggest challenges that employers face 
is that the E-Verify system does not have a fool-proof way to 
address identity theft. The system's Achilles' heel remains its 
reliance on and limitations on the information that is input 
into the system. If an employer is unable to confirm that the 
identity documents presented actually belong to the individual 
who presented them, then what value is there to the employment-
authorized determination? It is merely confirming the 
authorization of the data entered.
    Even though USCIS has made considerable progress, and 
despite their efforts in this area, absent a stronger identity 
tool tied to E-Verify, employers have been left to serve as 
document detectives. The good news, and I think the good news 
that this bill recognizes, is that there are ways to improve 
the current system, and there are many models for the pilot 
proposed by section 12.
    One system that I think really addresses this is the 
software system I actually helped develop called SecureID. This 
system leverages public-sector data and other information to 
provide real-time algorithms and consistent screening for our 
employees in conjunction with the I-9 and E-Verify. It also has 
a lot of protections or exception processes to make sure that 
we represent adequately and take care of the rights of asylees 
and new immigrants.
    The SecureID system avoids the problem of making rank-and-
file HR managers be identity investigators, who, in their well-
intentioned efforts to promote a legal workforce, only ask 
certain new hires lots of questions because their English isn't 
great, or they are presenting certain documents. That is simply 
unacceptable. Tools like the SecureID system have proven to be 
extremely effective for employees who have faced significant 
identity-fraud problems, and something like this could be used 
in a pilot as proposed in section 12.
    One of the ways that our tool is being used right now, for 
example, is for managers who are trying to figure out how do 
they address employees who come in through the DACA process. 
These are people who have now changed their name, and they said 
they have adjusted under DACA. The employees' employers are 
trying to decide how do we do that in a fair and consistent 
way, because last time we were fooled, right? Last time we 
thought they were authorized, but they weren't. And so by using 
a tool like this, using knowledge-based authentications, you 
can really do this in an effective way.
    Employers have also used a system like this to address 
third-party notification, such as when an insurance company 
calls you up and says, hey, this person you think is John Doe 
is actually not John Doe. Employers are facing how do we do 
this and how do we address this in an appropriate and 
nondiscriminatory manner. There are many tools like this in the 
private sector, and I encourage and applaud the work done in 
the Legal Workforce Act to look and see how can we push E-
Verify further and really address the problems of identity 
theft.
    Effective employment verification is critical to reducing 
the magnet of unlawful employment and restoring integrity to 
our immigration laws. I think the Legal Workforce Act takes 
some positive steps, and I agree with my counterparts that it 
is the best bill we have seen on this to address this 
continuing problem.
    I appreciate the opportunity to testify before you and 
would be glad to answer any questions you may have. Thank you.
    Mr. Gowdy. Thank you, Ms. Wood.
    [The prepared statement of Ms. Wood follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Gowdy. Mr. Mondi.

  TESTIMONY OF DOMINICK MONDI, EXECUTIVE DIRECTOR, NEW JERSEY 
               NURSERY AND LANDSCAPE ASSOCIATION

    Mr. Mondi. Thank you. Good morning, Chairman Gowdy, Ranking 
Member Lofgren, and honorable Members of the Subcommittee. 
Thank you for the opportunity to come to Washington today to 
discuss this very important topic of immigration reform, E-
Verify and the Legal Workforce Act.
    With this renewed debate, Congress now has a chance to 
repair our broken immigration system with legislation that 
addresses border security and employment verification, earned 
legalization, programs for future legal immigration, and 
guestworker programs.
    As for the E-Verify piece, no one has more to gain from the 
implementation and enforcement of an improved employment-
eligibility verification system than the honest small 
businessmen and -women who are trying to compete on a level 
playing field. Good business owners don't look to the 
government to create competitive advantages, of course, but 
rather to provide that level playing field, and a 
comprehensively reformed immigration system can help achieve 
that end.
    Unfortunately, the implementation of E-Verify in a vacuum 
outside the context of a comprehensive immigration package will 
have the unintended consequence of pushing more labor to the 
black market, increasing staffing burdens, and ultimately 
hurting the thousands of small businesses in the nursery, 
landscape and like-minded service industries. This is not what 
we need out of immigration reform.
    While we certainly don't defend the use of unauthorized 
workers knowingly or unknowingly, there is a reality that a 
large part of this workforce has been trained and has advanced, 
contributing their skills and talents to the good employers and 
businesses who make good-faith efforts to follow the law.
    Should mandatory E-Verify force much of this workforce off 
the books with no avenue to legal work status, the loser is the 
honest business, and the winner is the dishonest company who 
drives down prices and wages by taking up the skilled labor 
under the table. There are over 90,000 landscape companies in 
the country, and most average under 20 employees throughout the 
year. These are truly small businesses that rely heavily on 
labor. These thousands of small businesses need and desperately 
want a safe, legal and available labor pool to meet their year-
round and seasonal needs, but if a piecemeal enforcement-only 
policy is pursued instead of a comprehensive fix, and the 
existing workforce is displaced, where will the labor come 
from?
    It would be wrong, of course, to state there are no native-
born Americans who are willing or able to do this work. I 
myself have worked in the landscape industry my entire life 
starting at age 16. Our Nation's demographics, educational and 
employment opportunities, however, have changed over the last 
50 years. There are certainly some willing to do the work, I 
meet them all the time, but the pool to draw from is smaller 
than it has ever been and does not meet the overall needs of 
our economy.
    An older, slower-growing, better-educated society, while a 
good thing in many regards, is the contributing factor to the 
difficulties of many businesses in our industry and others like 
it have in finding qualified, hard-working labor. The ag 
sector, of course, would be hardest hit, of course, with 50 to 
75 percent of workers undocumented. We need proactive, forward-
thinking, and comprehensive immigration reform to address these 
challenges for the next generation of business owners and 
workers in our industry.
    In previous testimony before this Committee, it has been 
encouraging to hear about the improvements in the E-Verify 
system. And despite the recent and forthcoming improvements, 
many of our employers will face special challenges using a 
system like E-Verify due to factors like limited high-speed 
Internet access, high seasonal hiring and turnover, remote or 
nonoffice hiring, and lack of dedicated human resource 
personnel staff. We believe it is essential that the program is 
simplified for users, that error rates are minimized, and that 
identity theft concerns are addressed if E-Verify is to be 
phased in for all employers. As I understand it, this still 
does make strides in that direction, but the phase-in must 
coincide with a broad reform package.
    In conclusion, our organization supports the use of E-
Verify, but only as part of a comprehensive approach 
modernizing our immigration laws to help the needs of our small 
businesses who rely on an immigrant workforce. If enacted as an 
isolated measure, however, we believe mandatory E-Verify will 
be a clear net negative to our industry and will harm small 
businesses across the range of sectors, do serious damage to 
the economy.
    Thank you, and I look forward to any questions.
    Mr. Gowdy. Thank you, Mr. Mondi.
    [The prepared statement of Mr. Mondi follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gowdy. Thank all our witnesses for staying within the 
time parameters.
    The Chair will now recognize the gentleman from Virginia, 
the Chairman of the full Committee, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    I appreciate the testimony of all of our witnesses. And I 
will start with you, Mr. Amador. I very much appreciate your 
testimony and wondered if would you explain why the National 
Restaurant Association believes an E-Verify check should have 
an end date. 
    Mr. Amador. Well, as is currently drafted, one of the 
problems that we are having is with extent of nonconfirmations 
that go on forever and forever, you know, it could be several 
months. Under the law you still have to send them to training, 
you still need to do all these things. And you have to--it is 
an expenditure for an employer to do all of these things 
without knowing whether he is going to be able keep this 
employee or not.
    So one of the things that my members keep emphasizing to me 
is but it has to be clear, and it has to have an end date, 
because we want to know whether this employee is going to 
continue on our payrolls or we are going to have to let him go. 
And we understand, you know, we have been talking to counsel 
and looking at the bill. We like, you know, the 10 days, 3 days 
and then 10 days, and then under certain circumstances 23 days 
should be enough for the government to tell us whether the name 
and the Social Security number of that individual that is 
working already inside a premises is authorized to do so.
    Mr. Goodlatte. Very good.
    Ms. Wood, you note in your written testimony that having to 
comply with many different State and local employment-
eligibility verification laws has been difficult for some 
larger employers with national footprints to manage all the 
requirements. Would you comment on those difficulties, and 
might companies avoid doing business in certain States or 
localities because of competing laws?
    Mr. Amador. It creates----
    Mr. Goodlatte. You can comment on it, too, but we will go 
to Ms. Wood.
    Ms. Wood. We are probably on the same page on this one, I 
think. You know, to say that a company--you don't want 
companies to think, I shouldn't expand in Colorado because 
their additional verification sheet is going to make life 
difficult. And, you know, HR managers have difficult jobs as it 
is. We want them to spend all their energy making sure that 
their workforce is authorized as well as managing other tasks. 
Right now, when there are a number of different competing 
requirements, it is tough for them to do it effectively, be as 
compliant as they want. So I think this bill takes good strides 
in making, you know, a Federal E-Verify mandate and yet 
allowing States to have some ability to do certain things 
without allowing them to impose new requirements.
    Mr. Goodlatte. Very good.
    And, Ms. Blitstein, in the year that NC State has been 
using E-Verify, have you had situations in which E-Verify 
helped identify situations in which documents presented by an 
individual for the I-9 process were not, in fact, valid even 
though they looked valid on their face, as current law 
requires?
    Ms. Blitstein. Yes, to my knowledge we have had about two, 
maybe three at most, but two that I can clearly remember, where 
the individual presented documentation that on its face 
appeared to be valid, and then, through the E-Verify checks, we 
realized that it was, in fact, very good--in one case a very 
good fake and in another case not quite as good. But the system 
did catch those, and then we ended that employment.
    Ms. Wood. And if I could add just one thing to that. I work 
with a lot of high-risk industries. When they come onto E-
Verify for the first time, they find a lot of instances where 
there are final nonconfirmations. Of course, then the pattern 
shifts, and it is just identity theft. But early on I think 
they find it very helpful, particularly the photo-matching 
tool, because even if you do regular training for HR managers 
on how to identify fraudulent documents, there is turnover in 
that position as well, and it is just tough for them to keep up 
on the latest changes. So I think E-Verify and the photo-
matching tool has been extremely effective for that purpose.
    Mr. Goodlatte. Thank you.
    And, Mr. Mondi, what percentage of your industry's 
employees are not authorized to work in the U.S.? If, as you 
state in your testimony, unscrupulous employers who employ 
illegal workers, employees in the competitive marketplace--I am 
quoting you--suppress prices and hold down wages, why would you 
not want all of your competitors to be required to use E-Verify 
as soon as possible? 
    Mr. Mondi. Sure. I can't give you a specific percentage. 
There hasn't been good reporting on that, so I don't have a 
specific number for you.
    The challenge that a lot of businesses in our industry have 
now is that there is already a bottom-feeding tier, if you 
will, of employers who are paying cash under the table, who are 
not necessarily following existing laws, and there is no reason 
to believe that they would discontinue that practice. Obviously 
it would depend somewhat on how enforcement was enforced.
    The challenge would be that if they are already not 
following those practices, and the middle-tier employers who 
are forced to do E-Verify, and maybe they have some 
undocumented workers that they don't even know about, and all 
of that now forces--that part of the workforce gets displaced 
downward, there is actually an expanded labor pool for that 
bottom market, and the good employees have a problem.
    Mr. Goodlatte. Got it. But one would presume that if we 
made this mandatory, that one of the keys to that is not just 
making it mandatory that that bottom employer, as you described 
them, use the system, but that we have an aggressive system to 
make sure that they are indeed using the system.
    So I am sure you would agree that that should be a part of 
this. In fact, in this legislation, while there have been 
concerns expressed by some that we not have 50 different States 
having 50 different E-Verify systems, we have also recognized 
that the States have a role in helping the Federal Government, 
which may have more limited resources, in checking to see if 
businesses are indeed using E-Verify to have a much greater 
compliance effort there to check to make sure businesses are 
indeed using it.
    So once we have the system up and operating, we want it to 
work fairly for the employer and the prospective employee, but 
we also want to make sure that everyone is using it. That is 
really the whole point of the legislation, to have it mandatory 
so everyone is using it, including the people who are getting 
away with things today that they shouldn't be getting away 
with.
    Mr. Mondi. I agree 100 percent. And one of the unique--more 
unique challenges of the landscape industry, like maybe some 
construction trades, is the oftentimes lack of any centralized 
office or location. So we see with environmental regulations as 
well where certain companies, it is hard to track them down if 
they are dodging license fees or things like that because you 
can go to their office if you want--it is generally a room in a 
house, or maybe it is a small yard where the owner is--but he 
picks up his work to and from the yard--his labor to and from 
the yard, they are off site in different locations, sometimes 
not just day to day, but hour to hour, and unfortunately it 
becomes a real challenge.
    Mr. Goodlatte. Thank you very much.
    My time is expired. Thank you, Chairman.
    Mr. Gowdy. I thank the gentleman from Virginia.
    The Chair will now recognize the gentlelady from California 
Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And I would like to follow up with Chairman Goodlatte's 
line of inquiry, Mr. Mondi, if I can, because if I am hearing 
you correctly, there is an important goal that I think all of 
us would share, which is that everybody comply with the same 
rules so that it is a level playing field, nobody cheats and 
gets ahead.
    But there is an additional element, I think, and this is 
really my question, which is if there is not enough people to 
actually hire to do the job, then what? So you are in New 
Jersey with the landscape association. In the last Congress, 
you know, some people actually said that it wouldn't be so bad 
if people and landscaping and agriculture were denied access to 
needed workers; that then they would just go to mechanized 
efforts, and they would fill in with technology the loss of 
human capital.
    Would that work in the landscaping industry? I mean, the 
estimate is--we don't know, of course, but the estimate is that 
over half of the employees may not have their proper papers, 
they may have given a false document or the like. I am not 
suggesting that every employer knowingly hired someone not 
authorized. Would it work if half or two-thirds of the 
employees in the landscaping business in New Jersey were no 
longer available to hire?
    Mr. Mondi. Well, no. I mean, you would start to 
fundamentally change the structure of the whole industry. 
Traditionally you are talking about people who are younger and 
can handle working outside a lot and things like that. And as 
our demographic shifts, that labor pool is getting smaller.
    You know, on the agriculture side, we have a lot of nursery 
producers, high labor. If a lot of that production just shifted 
away from high-labor practices, you would see a loss of access 
to local food, especially crop growers shifted to other 
practices, or you would see a loss of open space in farmland, 
which is certainly not something that I would think we would 
want either. New Jersey prides itself, the Garden State, on its 
agriculture.
    On the landscape industry it proposes a lot of challenges 
as well. You start to actually see a separation. You might 
actually get to the point where if there are just less people 
to do the work, and there is less companies doing the work, a 
hyperinflation of the industry, which would start to make home 
landscaping, gardening, lawn maintenance, things which many 
average Americans and certainly in New Jersey can enjoy these 
days start to become unreasonable, start to create this higher 
tier of estate gardener--you know, you go back to the estate 
gardener sort of status for that community--while possibly 
having some sort of an undercurrent down below.
    And it is tough to say without having an exact number of--
or exact percentage of the workforce that is undocumented, but 
I can tell you in preparation for today, calling my members and 
asking questions, New Jersey has high unemployment, and 
employers are advertising online and in print and everywhere 
you would traditionally do that, and they are having a very 
hard time finding employees to do the type of work that they 
need. So it is already a challenge, and if that workforce that 
is in place was displaced, it would only get worse.
    Ms. Lofgren. So, what--if you are seeking some percentage 
of immigrants in the workforce, is there any way for people to 
legally come?
    I remember years ago, I was so honored when Dr. Richard 
Land from the Southern Baptist Convention was a witness before 
a Subcommittee, and I always mention that because I don't want 
to steal his line. It was a great line. And he said for years, 
we had two signs at the southern border. One sign said ``No 
Trespassing,'' and the other sign said ``Help Wanted.''
    And there is only 5,000 visas a year for unskilled workers 
without a college diploma. Are you able to meet the needs in 
New Jersey with those 5,000 visas in our current system?
    Mr. Mondi. Yeah. We have a lot of employees that are using 
the H-2B program right now for some of this temporary seasonal 
labor, and it is tough to find one that doesn't have 
complications with the system, and any--no system is perfect.
    Ms. Lofgren. There is a cap on that as well that is usually 
met right away.
    Mr. Mondi. There is a cap on that, and in the lowest of our 
economic times a few years ago, it was okay. I tell you those 
few years before that, that cap was met within the first--you 
know, first week of filings, and it was a real problem. And 
even now, you know, and anecdotally, you know, speaking with 
someone--one of my members on the way up here, they, you know, 
asked for 20 employees, and they got 16, and 4--4 are still 
stuck in their home country.
    And you know, when you are talking about seasonal work and 
not seasonal like, well, Christmas is coming, so we need to 
hear more salespeople, but when we are talking about seasonal 
where when the spring hits, it is time to go, you need your 
workers when you need them or you lose work, you lose revenue, 
and that--obviously, that is a problem. So----
    Ms. Lofgren. I see that my time has expired. I thank the 
Chairman, and I yield back.
    Mr. Gowdy. I thank the gentlelady from California.
    The Chair will now recognize the gentleman from Texas Judge 
Poe.
    Mr. Poe. Thank you, Mr. Chairman. Thank you all for being 
here.
    As we progress through this whole numerous issues on 
immigration, and I think there are numerous issues, that as I 
look at immigration law, you take any subject, and it is broken 
all the way up and down the ladder. And I thank--I commend the 
Chairman for being methodical of taking one issue at a time and 
trying to solve each of those.
    When it comes to workers, I used to be one that thought 
that Americans, if they needed work, they would take any job. 
Well, we have been proven wrong about that in the last hearing. 
We had the Georgia peach orchard guy. I don't know if they grow 
peaches in South Carolina or not, but----
    Mr. Gowdy. We grow them more than they do in Georgia, Judge 
Poe.
    Mr. Poe. We don't grow too many.
    But anyway, American farmer wanted to hire 2,000 workers, 
put all the ads out, hired every American that applied, 490-
some-odd. Peach season is over, he had three Americans working 
for him. Americans don't take those jobs. They have other 
options.
    My own philosophy is when it comes to workers, temporary 
guestworkers on both ends, high-skilled and low-skilled, we 
need as many as we need. Sure, hire Americans first, make sure 
we fill those low-skill, high-skill jobs with Americans first, 
but how many do we need? Well, we need, like I said, as many as 
we need, and the marketplace will drive us on that.
    I don't think we should set arbitrary numbers. I don't 
think the labor union should, the Chamber of Commerce. Congress 
has to figure out a way. Maybe that fluctuates from year to 
year, I don't know. But my philosophy is marketplace driven, 
and this is--the issue of verifying who is working and who is 
not working, and making sure that we keep up with workers and 
they go home when they are supposed to go home, all those 
issues, I commend Chairman Smith trying to make that simpler.
    But I say all that to say this: What do they do in other 
countries? We are not the only country in the world that has 
faced this tremendous issue. Have any of you done research with 
the other 194 countries there are in the world, if we count 
Texas, 195 countries left in the world, on this specific issue? 
And how do they solve this E-Verify concept that we are talking 
about? Any of you want to weigh in on that?
    Mr. Amador. Well, it is a big question, yes. A lot of 
countries have done many different things. I am not saying that 
they should be appropriate for the United States, but even if 
you look at Europe, they solve their problem by just uniting 
and letting poor countries send workers to rich countries, and 
that is how they solve their problem.
    They have similar ways of verifying identity. They have 
different ways of verifying identity. I know in France, you as 
an employer are required to send a list every month to the 
government, you know, with everybody you hire. There are 
different ways of doing it. From the perspective of the United 
States, I think building in a system that employers are 
becoming more familiar with, I think, is the right way to go.
    On the issue of workers, as you mentioned, I think the--we 
do not support the W visa part of the Gang of 8 proposal. We 
like the big bill as a whole, but, you know, again, maybe 
negotiating all of those things ends up creating a lot of 
flaws. So I would hope, you know, that thiscommittee, after 
taking E-Verify, will look at--I know you are looking at 
agriculture next, but look at other portions and maybe come up 
with better titles, you know, so when you go to conference, you 
are able to come up with a better package.
    Mr. Poe. Any of the other three of you want to weigh in on 
that?
    Ms. Wood.
    Ms. Wood. I would just say that I think E-Verify, it is a 
pretty good system, and it is increasingly doing kind of a 
better and better job. We don't have a demand side down, which 
is part of the reason we need to have kind of effective 
comprehensive immigration reform, but I think the E-Verify 
system, in a country that does not want a national ID card, is 
doing a pretty good job, and I think the government is making 
it easier and easier.
    When I was in the government, and now that was several 
years ago, we would meet with many other countries to talk 
about migration challenges, and they would ask advice for us--
from us, and we would ask advice from them. So it is not my 
experience that somebody else really has it solved. You know, 
Australia has an advantage because it is harder to get there, 
you know. Kind of there are those kinds of things.
    Mr. Poe. That is right.
    Ms. Wood. And other countries that have national ID cards 
can kind of focus on that. But, you know, we worked with 
several countries on effective worksite enforcement and 
challenges, because I think global migration patterns and 
issues, it is a real challenge for everyone, but I do think, 
you know, we are actually making some progress, so I would hope 
we stick with this horse.
    Mr. Poe. I have one other comment or question.
    Mr. Amador, if I own a franchise in Humble, Texas. Let us 
use Chik-fil-A. I am a franchise owner. Who is responsible for 
checking my employees? Is it me, is it a third party, or is it 
Chik-fil-A corporate?
    Mr. Amador. No. It is the franchisee. I mean, one of the 
biggest misconceptions in our industry is when you see a brand 
name, you are thinking it is a huge company behind it, and a 
lot of them is just really a mom and pop, you know, that may 
own two or three franchisees or maybe just one, and he is 
responsible for his employees. That is the way it is involved, 
because, you know, liability and other matters. So he has to be 
able to operate it as well as somebody that may own 100 or so 
franchises that may have----
    Mr. Poe. It is the franchise owner that is responsible for 
the employees.
    Mr. Amador. That is correct.
    Mr. Poe. All right. I yield back. Thank you, Mr. Chairman.
    Mr. Gowdy. Thank you, gentleman from Texas.
    The Chair will now recognize the gentleman from Michigan, 
the Ranking Member of the full Committee, Mr. Conyers.
    Mr. Conyers. Mr. Chairman, may I be skipped temporarily? I 
have a--someone waiting.
    Mr. Gowdy. Certainly
    Mr. Conyers. Thank you very much.
    Mr. Gowdy. I believe we would then go to Mr. Gutierrez, the 
gentleman from Illinois
    Mr. Gutierrez. Thank you so much.
    Mr. Gowdy. Yes, sir
    Mr. Gutierrez. I want to, first of all, thank all of the 
witnesses, and I want to say to my colleagues on both sides of 
the aisle I am ready to support a vigorous, rigorous program to 
verify employees. I do not want to see a continuation of a 
permanent underclass of workers in this country. I want to fix 
our broken immigration system.
    I think that essential and critical to any comprehensive 
immigration reform package is to have E-Verify, and I want to 
make sure it works. I want to make sure that, as we have--we 
are suggesting today, that if there is an employer in America 
who wishes to hire an undocumented worker, that the full weight 
of the law is applied to that individual. And I would hope that 
as part of any process we make tests, especially in the first 
few months, that when we catch any scoundrels out there 
attempting to hire undocumented workers, that we enforce the 
full force of the law against them, because, you know, it takes 
two. It takes also--not every employer is hoodwinked by someone 
with false papers. There are employers who knowingly and 
willingly undermine American citizen workers by giving workers, 
undocumented workers, and I want to end that. I want to end it 
not only for the American workers, but I want to end the 
inherent exploitation that exists of the undocumented worker.
    I think we need to understand that I am for E-Verify 
because I want everybody verified for the system. We have a 
great Nation. Things are getting better. And how are they 
getting better? Everybody tells us, OSHA tells us, American 
workers are safer than ever before. Tragically, 13 die every 
day and never come home, but they are safer. But when you 
extract Latinos from the group, more Latinos are getting hurt 
on the job, and more Latinos are dying at the job as the rate 
is declining for the overall pool of American workers.
    I want that to end, so I am ready for E-Verify. I am ready 
to verify everyone. But let me just suggest the following. In 
the absence of a comprehensive immigration reform package, 
where are the votes to get the public policy? They are 
certainly not going to come from this side of the aisle, and we 
are going to have difficulty in reaching a grand bargain. And 
this, I want to state categorically, is part of the bargain, an 
essential fundamental part of any agreement in comprehensive 
immigration reform: enforcement, internal enforcement. It will 
stop and not allow a future event where, years to come, we have 
millions of other undocumented workers exploited again.
    So if you look at this from my point of view, and the 
humanity, and the safety, and the justice of immigrants and 
working men and women, or from a public safety point of view, 
or from an economic point of view, take the view you wish, we 
should be able to reach an agreement on comprehensive 
immigration reform.
    Now, if you allow the 11 million out there, then what you 
are asking me is to take our broken immigration system and 
unleash upon them an E-Verify system that is only going to make 
them go deeper into a more exploitive state where there will be 
more people that can prey upon them, I can't do that. I can do 
this, and I will encourage all of my colleagues to do this in 
good faith, to keep America safe.
    So, I want to thank you, Chairman Gowdy, for putting this 
hearing together. I hope we continue to have hearings like 
this. I think E-Verify is important. I believe we can make 
America safer, and make our workers safer, and live by this 
adage: Any job created in America should go to an American 
first, but there is plenty of work for others to come to this 
country, as they have in the past, to do.
    Thank you so much, Chairman Gowdy.
    Mr. Gowdy. Thank the gentleman from Illinois.
    The Chair would now recognize the gentleman from Texas Mr. 
Smith.
    Mr. Smith. Thank you, Mr. Chairman. I am tempted to ask for 
10 minutes, my 5 minutes plus the 5 minutes Mr. Gutierrez did 
not use for questions. I can only say that about a friend. I 
appreciate and admire Mr. Gutierrez very much for all that he 
has contributed to the immigration reform debate.
    And I do want to say it is nice to hear everyone who is 
here as a witness, and, in fact, all my colleagues support E-
Verify either alone or often in conjunction with other 
immigration reforms, and I certainly appreciate that.
    Mr. Amador, I would like to start off with you, if I could. 
I don't know if I heard you mention in your oral statement the 
recent survey that was taken by the National Restaurant 
Association. Did you mention that in your opening statement?
    Mr. Amador. Go ahead.
    Mr. Smith. The recent survey that was taken.
    Mr. Amador. Yes.
    Mr. Smith. Could you go into some detail about that survey, 
because I think it is very instructive.
    Mr. Amador. Sure. We--we just issued a survey that was 
completed late last year. We got more responses than we thought 
we were going to get. We got about 800 of our members, large, 
small suppliers. So we got a very good picture of a membership 
comment on E-Verify, you know, both members that use it, 
members that did not use it.
    One thing that, you know, until now and last time we 
testified, the National Restaurant Association testified before 
the Committee, it was all anecdotal. Now we have the evidence, 
you know, and the evidence shows that our--the larger 
companies, you know, the larger members, already 49 percent of 
them are using E-Verify, and out of those, two-thirds of those 
that are using E-Verify sign up to it voluntarily.
    One thing I will mention is, I mean, this whole idea that 
we cannot do enforcement alone, it is already happening. I 
mean, my members are seeing it. It is true that I get a lot of 
push-back from my guys in California as to why are you 
supporting the Legal Workforce Act; it is not going to be 
mandated here. Well, more and more it is mandated across 
borders, and it is having different mandates, and that is one 
of the complaints. They are signing up, and they are viewing 
that it is not just signing to E-Verify, it is signing to E-
Verify of Colorado, E-Verify of Arizona, and they want a 
neutral playing ground, you know, where they have one law to 
follow.
    From those that are not using E-Verify, I would say that 
the number one comment that they said was, well, we don't have 
an HR department, and we would like some options.
    Mr. Smith. Okay. Mr. Amador, I just wanted to make the 
point that I thought the survey also showed specifically that 
79 percent of restaurant owners view E-Verify as 100 percent 
accurate. Is that--is that the final----
    Mr. Amador. They found that to the best of their 
knowledge,that it was 100 percent accurate.
    Mr. Smith. When you can find 79 percent of any group of 
individuals thinking that anything is 100 percent accurate, 
that has got to be a new record either in the private sector or 
in the public sector.
    Mr. Amador. It was that answer I did not expect, and we 
were happy to see it. Another one that was very interesting is 
80 percent of those that use E-Verify recommended E-Verify to 
their colleagues.
    Mr. Smith. And to your knowledge,the use of E-Verify, the 
cost is minimal by the various owners?
    Mr. Amador. That is what they were saying in the survey. 
One comment is for those that did not use it. For those that 
use it, already have Internet access, already have the 
framework in place.
    Mr. Smith. Right. And then what is the average time that it 
takes to check in a potential or future employee?
    Mr. Amador. It takes--it takes minutes.
    Mr. Smith. You could say 2 to 3 minutes.
    Mr. Amador. And if you want to--excuse me?
    Mr. Smith. Two to 3 minutes is what I have heard. Is that 
accurate?
    Mr. Amador. Two to 3 minutes. And the number one complaint 
with it, which was the original question at the beginning of 
the hearing, was the tentative nonconfirmation throws a wrench 
into the system. So the 2 or 3 minutes we love, but then the 
tentative nonconfirmation adds additional cost to----
    Mr. Smith. Right. And the nonconfirmation shouldn't be a 
surprise, maybe particularly in the restaurant business, but in 
any business, because across the country about 5 percent of the 
workforce is illegal. So when we find out that 5 percent across 
the board doesn't--don't get confirmed, that is not a flaw in 
the system; that is actually showing that the system works.
    Mr. Amador. And the concern that they have with exemptions 
that--exceptions that have been created in other States is they 
may need--it is a very neighborly business, right, so you turn 
somebody down, and they say, then I go to another restaurant 
that is exempted, because it happens perhaps throughout----
    Mr. Smith. That is why everybody needs to use E-Verify.
    Mr. Amador. Right.
    Mr. Smith. Thank you.
    Ms. Blitstein, I wanted to go back to your statement, and I 
wanted to really clarify for the record, when you talked about 
applying E-Verify to the current employees, that I wanted to 
make sure that you and others understood that the bill, yes, 
does apply to current employees when it comes to Federal 
contractors, for example, but as far as all other businesses, 
when we are talking about future employees. So the burden is 
not going to be there, the burden that you might feel, and we 
can talk more about what to do about it, but that burden is not 
going to apply in, I would say, 99 percent of the cases.
    The bill allows an employer to check current employees if 
they check all employees, and that is in an effort to avoid 
discrimination. But again, that is voluntary. We don't force 
everybody to check their current workforce. I just want to make 
sure that that was clear.
    I appreciate your saying that E-Verify works as intended, 
and that it is a balanced approach as would--as well.
    Is my time already up? Maybe I will go into Mr. Gutierrez's 
5 minutes. No. No.
    My time is up. Ms. Wood, let me just thank you for your 
testimony very quickly, and may I ask you what benefit you 
think E-Verify has for American workers? Sometimes that gets 
lost. We all talk about foreign workers. I don't think we talk 
enough about the benefits to American workers. And, Mr. 
Chairman, if I could ask your indulgence for her to answer that 
one question.
    Mr. Gowdy. Certainly.
    Ms. Wood. Well, E-Verify provides kind of an even playing 
field for authorized workers when they apply to the system, and 
so it encourages employers to have, you know, wages and other 
things that are not undercut because they are depending on an 
illegal and unauthorized workforce.
    Mr. Smith. Okay. Thank the gentleman from Texas.
    The Chair would now recognize the gentlelady from Texas Ms. 
Jackson Lee.
    Ms. Jackson Lee. I think that has a certain ring to it. 
Thank you very much, Mr. Chairman.
    And as my good friend Mr. Smith was leaving, let me thank 
you and the Ranking Member. And I wanted to make mention of the 
fact for the record that yesterday we completed in Homeland 
Security one of the components to comprehensive immigration 
reform, which is a very strong border security bill, and I 
wanted to make mention for this Committee that Mr. Smith and I 
joined on an amendment that covered operational control for--
oh, I am sorry. I thought you had stepped away--operational 
control for the entire border. And I just wanted to show a sign 
of bipartisanship and comfort for this Committee as we look at 
these issues that are enormously important, and if I might do 
an advertisement, I hope that we will consider that bill as a 
component to the process of comprehensive immigration reform.
    Let me thank the witnesses. Mr. Amador, it is good to see 
you again. We have had a long journey of working together. But 
I really want to take a moment and thank the National 
Restaurant Association. We have worked with them over the 
years, but I do want to thank them for being such an enormous 
economic engine, and coming from Texas and Houston with such a 
large membership, certainly my friends, I have been in their 
restaurants, I have met with them, I understand the challenges 
that they have, and I would also say that they seek to hire 
anyone who will come and be a good worker, and do the job, and 
stay on the job.
    You have given opportunity to young people. I am hearing 
that you are hiring seniors because seniors are coming back to 
work, and in between. And there are people at your--in your 
business--businesses that use the restaurant job as their 
income for their family, so I think your work is very 
important.
    And I wanted to just ask a straight-out question because I 
wanted to make sure we were correct. The National Restaurant 
Association is supporting a comprehensive immigration reform; 
is that not the case?
    Mr. Amador. We support immigration reform whether it is one 
piece at a time, whether it is only DACA. We supported DACA by 
itself. We support the Legal Workforce Act, and we support 
legalization of work--legal work status for I wouldn't say all, 
but certainly a great number of the 11 million.
    Ms. Jackson Lee. My understanding is that you are going on 
record for access to legalization for the 11-, 12 million 
undocumented individuals?
    Mr. Amador. Of course, with caveats as, you know, if you 
have a criminal record and things like that.
    Ms. Jackson Lee. Well, our bill will cover all that.
    Mr. Amador. But other than that, yes
    Ms. Jackson Lee. You are.
    And you would--you would certainly be happy if components 
of what you are interested in came out in the form of a 
comprehensive immigration package.
    Mr. Amador. Correct.
    Ms. Jackson Lee. So we can work together.
    I wanted to just go over some--and thank you for that. And 
I want to look very closely at this legislation. Certainly our 
Chairman has made a great effort. One of the things that I want 
to implore the Chairman of the full Committee for and the 
Ranking Member is that we do have regular order, and that this 
Committee has the ability to participate in the process, and 
hopefully we will find that there are people here who will work 
for the greater good.
    I want to ask Ms.--is it Blitstein?
    Ms. Blitstein. Blitstein.
    Ms. Jackson Lee. Blitstein, let me get that correct. One of 
the things that I wanted to raise very quickly is the question 
of due process and the ability to challenge the idea that I am 
documented. Do you have an answer to that? There is no 
provision in this bill for due process. If someone has claimed 
falsely that they are not--they don't verify them, but they are 
a citizen, or they have status?
    Ms. Blitstein. CUPA-HR would be in support of measures that 
could afford someone due process. No system is completely 
perfect, and while we certainly support the Legal Workforce 
Act, that doesn't mean--because there is no provision, that 
doesn't mean that we wouldn't be supportive of--of some 
mechanism like that.
    Ms. Jackson Lee. That would be very helpful. Thank you.
    I want to go back to Mr. Amador. One of the major concerns 
about E-Verify has been raised. Historically the system returns 
an unacceptably high percentage of both erroneous confirmations 
and erroneous nonconfirmations. And we have heard testimony 
from USCIS early this year that improvements have been made. 
Will that pose a problem? And I have heard from the restaurant 
association that that has been a problem.
    Mr. Amador. It used to be a bigger problem. And again, you 
know, we had originally opposed--and this is years ago when it 
was first mandated, we had opposed E-Verify, but the 
improvements are significant, and our members are telling us 
that, you know, when people go back, they are able to fix those 
problems.
    Ms. Jackson Lee. But you would want to make sure that those 
problems would be fixed.
    Mr. Amador. Well, of course, you know, we would like the 
system to always improve, but that doesn't mean it shouldn't be 
mandated, because it is working for the purpose intended.
    Ms. Ja0ckson Lee. I appreciate it.
    Mr. Mondi, I am sorry. Let me just--appreciate your 
industry as well, and I don't want you to have to go out of 
business. What about the idea of how much this would cost maybe 
for the employer, for the employee, and fraudulent documents? 
And in your industry it is seasonal, what kind of major impact 
that would have on you.
    Mr. Mondi. So----
    Ms. Jackson Lee. How much--how much the system would cost, 
maybe cost the user, et cetera.
    Mr. Mondi. If----
    Ms. Jackson Lee. Added cost.
    Mr. Mondi. It would add a lot of cost in lost time. So 
actual dollars spent, if the technology advancements do come to 
fruition the way they have been suggested they may, with 
smartphone application and telephonic things, that might be 
very helpful. If your office is the cab of your pickup truck, 
however, any sort of additional paperwork burden is just that. 
It takes more time, it takes more time in the office, less time 
in the field. You are talking about owner/operators who will 
spend as much time with their hands on the shovel as they do on 
a keyboard, right?
    So the biggest loss of money is going to be through 
additional time and administrative burdens. They don't have HR 
staff; you know, they cover every aspect of the business. And 
so when you are off site, when you do don't have an office, and 
you don't have dedicated office staff, any types of challenge--
any type of paperwork burdens become a challenge.
    Ms. Jackson Lee. Let me thank the witnesses, and again, if 
I might add my appreciation for the restaurant association and 
the work Mr. Amador has done with us. Can we continue to work 
together?
    Mr. Amador. Yes.
    Ms. Jackson Lee. I would love to do that.
    I want to thank the Chairman, and I yield back.
    Mr. Gowdy. Thank the gentlelady from Texas.
    The Chair would now recognize the gentleman from Iowa Mr. 
King.
    Mr. King. Thank you, Mr. Chairman.
    I want to thank the witnesses for your testimony here 
today. And as I listen to the theme through here, that there is 
work that Americans won't do, and having spent my life for a 
time with a shovel in my hands or down in the ditch, and 
actually I haven't found anything that I won't do, or anything 
I can't get my sons to do, or anything that I can't get our 
crew to do. Whether it is 126 degrees heat index or 60 below 
windchill, we will do what needs to be done.
    And there are an awful lot of Americans that are 
naturalized, native-born Americans that are out there in the 
cold and the wind and the heat in the ditch doing this work 
every single day, and I pay attention. Around this city I can 
send my staff out with a video camera, and we could find you 
all kinds of work done in this city done by Americans that are 
doing work that Americans won't do.
    So I just--I wanted to put that particular thing, perhaps, 
to rest, although it keeps recurring year by year, and make the 
point that, for example, 75 percent of illegal aliens in this 
country have less than a high school degree, high school degree 
or less, and a household headed by a high school--someone with 
a high school--without a high school degree will draw down--
will pay in taxes about $11,469 in taxes, and they will receive 
about $46,582 in benefits. That is a net fiscal deficit of 
$35,113.
    What we are talking about here is a Nation that has a 
cradle-to-grave welfare system. This is not 1900. This isn't 
1907 when the previous wave of immigration peaked. This is the 
cradle-to-grave welfare system in the United States, and Milton 
Friedman said clearly that the--an open borders program and a 
cradle-to-grave welfare system cannot coexist, and that is what 
we are doing here.
    What we are doing is, speaking of the comprehensive 
immigration reform policy that has recurred here, is that we 
are really talking about taxpayers subsidizing the difference 
between the cost of sustaining a household and the wages that 
can be drawn into that household from someone who is--who is, I 
will say, of lower education, not necessarily lower skills. And 
I would ask unanimous consent to introduce into the record the 
Robert Rector report of the Heritage Foundation dated May 6, 
2013, and ask a unanimous consent, Mr. Chairman.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. King. Thank you, Mr. Chairman.
    Then I wanted to ask the question of Mr. Amador, the bill 
prohibits an employer from checking current employees unless 
they check all current employees. So let me suggest that if you 
had a national restaurant burger chain, and you had--in one or 
more of the locations you had reasonable suspicion that a high 
percentage or even any of your workforce was working 
unlawfully, under this E-Verify bill, how would you go about 
doing your due diligence as a citizen to verify those employees 
if you had that administrative burden of all the employees in 
the Nation, as Ms. Blitstein has said?
    Mr. Amador. Well, let us--I will say a little bit of 
history, and I know Ms. Blitstein--Blitstein reported on that a 
little bit.
    When the Federal Government, when the Obama administration 
continued the policy of the Bush administration requiring 
Federal contractors to reverify the entire workforce, the U.S. 
Chamber of Commerce filed a lawsuit. They have since lost that 
lawsuit, but it was accounted that it cost millions of dollars 
to reverify people that had already gone through the current 
system and there was no suspicion of any of them being 
undocumented.
    The same is still true for the entire workforce. It is very 
expensive to go back and reverify, particularly in our industry 
where you have such a high turnover rate, to bring everybody in 
and make sure that you didn't miss anybody, even the owner, 
because if you did that, then you open yourself for liability.
    Mr. King. Would you prefer to have the option that as an 
employer at a location could just simply run one or more of the 
employees who he verified that were current employees?
    Mr. Amador. We have always supported a voluntary 
reverification with good cause. That doesn't mean that we want 
to waive other nondiscrimination and antidiscrimination laws, 
but at the same time, you know, if you have good cause, if you 
have reason to believe that the----
    Mr. King. And I can get into that discrimination piece, 
because the computer doesn't know the difference. But I would 
go to Ms. Wood in the time that I have left, because one of my 
other concerns, and I have a couple--one of my other concerns 
is that we have an executive branch that refuses to enforce 
immigration law, and so it is hard for me--although I like a 
lot that is in this bill, it is hard for me to get to the point 
where I can except that with a promise of enforcement of 
immigration law, we would actually get enforcement, since I 
have been watching this since 1986 and am disappointed with 
every Administration, including Ronald Reagan, on this issue. 
How could we expect the law to actually be enforced unless the 
President wants it to happen and believes in it?
    Ms. Wood. Well, I think it is tough, and as I noted in my 
written testimony, I mean, it has been a challenge, you know, 
how can we do this more effectively? That doesn't mean, I 
think, that we give up, and I think this bill and more and more 
employers going on E-Verify is a good start.
    I would note just with the idea of verifying kind of one 
employee at a time, I do think we have to be careful and build 
in some civil rights and civil liberty kind of protection, 
because you could have a well-intentioned HR manager that would 
just decide that only employees that don't speak English well, 
those would be the one I would--would want to run through for 
existing employees.
    So I think we have to be careful if you allow people just 
to run an individual employee through without a reasonable 
amount of suspicion or a particular investigation that would 
lead them to that.
    Mr. King. Thank you, Ms. Wood.
    And I would note, Mr. Chairman, that you have already made 
the decision to hire, that would be when the discrimination 
would take place.
    And I yield back.
    Mr. Gowdy. I thank the gentleman from Iowa.
    The Chair would now recognize the gentleman from Florida 
Mr. Garcia.
    Mr. Garcia. Thank you, Mr. Chairman.
    Ms. Wood, you worked in the previous Administration, and 
back then, if I remember correctly, you favored comprehensive 
immigration reform.
    Ms. Wood. That is right, and I still do, yes
    Mr. Garcia. Good.
    I just want to get back to a statement that was just made. 
You would assume that since we are deporting about half a 
million people a year, that this Administration is enforcing 
immigration law.
    Ms. Wood. I think that no Administration, the Bush 
administration included, has been effective in truly reducing 
the magnet of unlawful employment. I think we have all tried, 
we tried in different ways, and we haven't succeeded. And so I 
think it makes sense to look at how can we improve our overall 
system. One of those ways is by making E-Verify mandatory and 
looking at that. I certainly think that the continuation of the 
Secure Communities program has been a very positive thing, and 
there has been other positive things in the Obama 
administration as well.
    Mr. Garcia. Thank you. Just glad to know--I am glad that 
you agree that we are enforcing immigration law. It is an 
important aspect to this.
    I want to ask you, following up, you would--you would agree 
with me that sort of continuation of an immigration system that 
is broken under the current confines makes absolutely no sense, 
right, that you are probably trying to do the impossible?
    Ms. Wood. I think our system is broken, has been broken, 
and we need to do something to fix and address. I think we have 
a responsibility to do that, even though it is tough, and even 
though the answers, frankly, may not be perfect. But I do think 
this bill on the E-Verify piece, I will say, is, in my view, 
better than the proposal in the Gang of 8 relating to 
employment verification, so I hope that something more similar 
to this could be considered at an appropriate time
    Mr. Garcia. I would imagine that because you believe in 
comprehensive immigration reform, you see this as a part of a 
broader--broader component. This is but a component of an 
overall immigration overhaul, and that what we need to do is 
fix it all at once and get it done, correct?
    Ms. Wood. We need to fix it, but if this is all we can do, 
I would say let us start with this. So I am--you know, I 
certainly think we need to fix it, but--but just like DACA, it 
may be that there are portions of reform that make sense in 
different chunks, and that the American people are--and 
Congress would be able to do that in kind of sizeable pieces, 
and I am not opposed to that. If we can do it in one overall 
bargain, you know, kind of all the better, but we have got to 
make sure we get every piece of it right. Got to make sure we 
get interior enforcement right, border enforcement right, 
future demand right, and that is very difficult, particularly 
in a bill that is almost 900 pages.
    Mr. Garcia. You do realize, though, the complexity when we 
have Members of this Committee who find the ability of doing 
immigration at all or making the assertion, almost ludicrous 
assertion, that Americans are willing do all these jobs when we 
found that that has not been the case across the board probably 
for the last two decades, correct?
    Ms. Wood. These are incredibly tough issues, and I think 
the fact that Congress is focusing on them so much now makes a 
lot of sense. And so I just hope that there is political 
courage on both sides of the aisle to seek for a reasonable 
situation that is not perfect, doesn't satisfy everyone's 
equities, but moves the ball forward, because the current 
situation we are in, I think, is not tenable and not 
sustainable in the way we would like for the American public.
    Mr. Garcia. Okay. I wanted to--thank you.
    I wanted to ask Mr. Mondi a few--a question.
    So, you know, implementing these requirements to the 
agriculture industry, last time it came up, there was sort of 
an outcry because it could basically shut down the agricultural 
industry, and, in fact, there were consequences when we had 
enforced certain provisions in certain parts of the country. So 
is--is the E-Verify that we are proposing here workable for 
your industry, and would you----
    Mr. Mondi. E-Verify is important as part of--there are a 
couple other components. I know after this hearing we are going 
to be discussing a workforce--a guestworker bill.
    Mr. Garcia. Uh-huh.
    Mr. Mondi. And now for specific comment, certainly that 
panel can address those, but there is also the legalization 
factor where if you have people who develop skills over time 
that have been here working hard, which we know in agriculture 
in particular, since that is your question, there is a lot of 
them, without some--you can't pick up three-quarters of the 
workforce, throw them out, and just bring in--replace that with 
new people that have no experience and maybe even ability.
    So, I think that E-Verify is going to absolutely be a part 
of advancing agriculture, but I think it is going to be 
imperative that there is a guestworker program, and that there 
is some legalization program as well.
    Mr. Garcia. Or broader comprehensive immigration.
    Mr. Mondi. And all those things together are contingent on 
each other, so they need to be together.
    Mr. Garcia. Thank you. Thank you very much.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Gowdy. I thank the gentleman from Florida.
    The Chair will now recognize the gentleman from North 
Carolina, the former U.S. attorney Mr. Holding.
    Mr. Holding. Thank you, Mr. Chairman.
    Ms. Blitstein, welcome. I understand you are a constituent 
of mine, so it is a delight to have you in the Committee today, 
and so I will ask you a few questions.
    In the years that NC State has been using the E-Verify 
system, have you had situations in which E-Verify has helped 
identify places in which documents presented by an individual 
for the I-9 process were not, in fact, valid even though they 
looked valid on their face, as current law requires?
    Ms. Blitstein. In our experience we had, that I can think 
of, about two situations that I can think of with clarity where 
the system did catch that they were fake documents. One of--
they are both green cards or permanent resident cards. One of 
them was actually very good, and it took me a little while, 
after I got the result, to figure out where some of the 
fraudulent aspects had come in. And then there was one that was 
not quite as good, but the system captured that right away, and 
then we terminated that employment.
    Mr. Holding. And did you follow up with law enforcement at 
all on the fraudulent documents?
    Ms. Blitstein. We did not. And because through the E-Verify 
system, now at least the Department of Homeland Security was 
aware that those individuals were using fake documents, and so 
we ended our employment, which is our obligation, and then that 
is when we ended the matter.
    Mr. Holding. And do you have any idea whether the 
Department of Homeland Security followed up on, you know, 
occurrence of fake documents being used with individuals?
    Ms. Blitstein. On those two instances, I am not aware, and 
Homeland Security did not reach out to my office at all about 
those two individuals.
    Mr. Holding. The--this is to the whole panel. You know, as 
a situation like that arises, and, you know, you catch an 
instance of false documents, have any of you ever gone beyond 
what is required and reached out to law enforcement to ask them 
to follow up on, hey, we have someone here using false 
documents?
    Ms. Wood. I work with some companies that under the IMAGE 
program have a protocol where they can relate certain things to 
ICE and so have done that on certain occasions. But it is not 
where they have an individual employee that is a problem, but 
where they are seeing kind of a current pattern or something 
else, like the fraud is shifting of individuals trying to get 
through the system, and they report that.
    Mr. Holding. All right. The--again to you, Ms. Blitstein. 
How many resources are wasted when an employer is required to 
actually hire an employee before the employer can check the 
work eligibility of that employee and subsequently finds out 
that the new employee is not work authorized?
    Ms. Blitstein. Because of the industry that I am in, higher 
education, I would say that we are unique from some in that we 
have not found a large instance where we did subsequently have 
any issues with documentation. So it is not something that has 
occurred and wasted a lot of our time, but certainly, like my 
colleagues can say, I do understand when you get the tentative 
nonconfirmation, and that process can take a while to get 
resolved, that there are resources that potentially could be 
effective, or you are training someone and then they have to 
leave. But at least at NC State we have not really had that as 
a situation.
    Mr. Holding. All right.
    Ms. Wood. And, in fact, if I could just add.
    Mr. Holding. Sure.
    Ms. Wood. Particularly what we see in the proposed Senate 
bill, the idea that after a nonconfirmation an individual can 
then go to an ALJ, I mean, there is so much uncertainty for an 
employer, and I think that is very problematic, and you are 
going to have employees who are not authorized who are going to 
try to game the system and stay and work as long as possible. 
So I think that it is stretching out the amount of time before 
the employer has a final decision could be a really kind of 
problematic thing in terms of business operation, money wasted 
on training for people who ultimately aren't authorized, et 
cetera.
    Mr. Amador. And I would like to add.
    Mr. Holding. Yes, sir.
    Mr. Amador. In our industry, I guess, is the opposite. 
Because of the demographics of our industry, and we are very 
proud of our diversities at all levels, from managers to cooks 
to dishwashers, you know, we are very proud of that, but we get 
a disproportionate amount of these nonconfirmations than vis--
vis other industries. The number one cost is the cost of 
training. You know, you are training this individual for a job 
that he may not have the following day, and at the same time 
you cannot hire somebody else to do the job. So that is the 
number one reason.
    So, one thing that is very important that we have been 
asking for for years, from both Democrats and Republicans, is 
something that is on this bill: being able to conditionally 
hire somebody that--saying, well, if everything checks--you 
know, right now you can look at background checks, you can look 
at all of these other checks except employment authorization. 
Under this bill, you can make employment conditional on a final 
confirmation, and that that is very important because you do 
not waste all that time and money, you know, training somebody 
that might not end up working for you after all.
    Mr. Holding. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Gowdy. I thank the gentleman from North Carolina.
    The Chair would now yield to the gentlelady from California 
for a question.
    Ms. Lofgren. Just one quick question, Ms. Wood. You, I 
think, said that it would be a concern that unauthorized 
workers would game the system to string it out. Do you have 
any--are there any studies, or, I mean, any evidence to support 
that statement, because I--at least in what we have seen, 
people who are here unauthorized, the last thing they want to 
do is come to the attention of anybody. I mean, they are 
hightailing it down the street if they get caught. What data to 
you have to support that?
    Ms. Wood. Certainly there are companies that I have worked 
with where that has occurred. And so I think that the attitude 
is changing a little bit, and part of that may be people, you 
know, are hoping that there is going to reform in the system, 
and so that if they can just work a little bit longer, 2 or 3 
weeks, while they are employing for a job down the street, they 
would do that.
    I would say several years ago we didn't see that. I think 
there was more willingness even--unfortunately, even people who 
are authorized, but may be new immigrants, if there is a TNC 
that came back, sometimes they would leave the job when they 
shouldn't have. But now we are actually seeing people who are 
contesting even final nonconfirmation.
    Ms. Lofgren. If you could provide us some examples of that, 
I would appreciate it. I remember my former counsel on the 
Subcommittee when I chaired who was an American citizen and--
you know, an Immigration counsel, who was given a tentative 
nonconfirmation.
    Ms. Wood. Right.
    Ms. Lofgren. And it took her--I mean, she is an immigration 
lawyer. I was Chair of the Immigration Subcommittee. It took 
her----
    Ms. Wood. That might be the problem.
    Ms. Lofgren. It took her almost a month and a half to sort 
it out, and, I mean--and if there is no process, you just get 
fired, and if you don't get notified----
    Ms. Wood. Right.
    Ms. Lofgren [continuing]. Then you can never fix it.
    Ms. Wood. Well, you certainly should have the process, and 
I think the current process generally works. I will tell you 
that right now we have had some people that have gotten a final 
nonconfirmation, but are authorized, and what they have able to 
do, and we have helped them, go to USCIS and get that resolved. 
So I do think it is important that on an individual basis there 
are ways that if the government kind of doing it and they go 
and address that. What I am concerned about is 
institutionalizing the idea of having an ALJ and other layers 
there----
    Ms. Lofgren. I am not necessarily talking about the Senate 
bill so much as the need for Americans to not be treated 
unfairly.
    Ms. Wood. Oh, yeah, and I think the current TNC process, I 
think, works generally very well.
    Ms. Lofgren. I am going to stop, because I want to thank 
the Chairman for letting me ask that question, and I don't want 
to abuse his good courtesy.
    Mr. Gowdy. Yes, ma'am. Thank you. I thank the gentlelady 
from California.
    The Chair will now recognize himself for 5 minutes, and I 
would begin by asking unanimous consent to enter into the 
record the following: letters of support for H.R. 1772 from the 
National Restaurant Association, Associated Builders and 
Contractors, Essential Worker Immigrant Coalition, National 
Retail Federation, Darden Restaurants, and a statement of 
support for this bill from ImmigrationWorks USA. Without 
objection, so entered.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________

    Mr. Gowdy. Ms. Wood, do you agree the safe harbor 
provisions in this bill are balanced inasmuch as they seek to 
protect employers who use the system in good faith, but also 
allow the government the flexibility to enforce the laws 
against employers who do not use the system in good faith?
    Ms. Wood. You know, I do think that the safe harbor 
provisions attempt to do that. I think one thing that is 
important is you want to make sure employers have the ability 
if someone comes in on day one with an obviously fraudulent 
document, and you are going through the I-9 process, that you 
can kind of end it right there without them having to move 
through, you know, a longer E-Verify system or something else.
    But, yes, I do think the safe harbor--and I think it is 
important for employers to have a good safe harbor that works.
    Mr. Gowdy. You have referenced consultation and work you 
have done with employers in the past. Can you speak to their 
initial apprehension or skepticism with using this system and 
whether or not actually using it has mollified those 
skepticisms at all?
    Ms. Wood. It really has. For the employers that I have 
worked with in the landscaping, construction, and in the 
restaurant industry, often the first reaction is this will 
never work for our workforce, it is absolutely going to destroy 
our ability. And, you know, oftentimes some of these companies 
weren't coming to E-Verify voluntarily. Some of these companies 
were encouraged to do so by, you know, difficulties in 
interacting with ICE and things. But once they are on the 
system, you know, they feel a lot of help from the system, they 
feel a lot of surety from the system, particularly with the 
photo matching and other tools that E-Verify has.
    You know, I will say that sometimes their turnover is 
higher than they are used to, even in high-turnover industries, 
for a period of time, but I think as employers are on it, they 
get used to it, and I think the workforce knows that it is 
coming and looking for jobs there that, you know, X company is 
an E-Verify employer, and so that there is almost a self-
selecting of the workforce up to some degree.
    Mr. Gowdy. Thank you.
    Mr. Amador, what are your thoughts on allowing an employer 
to acquire a prospective employee--to require a prospective 
employee to use and be confirmed through the E-Verify self-
check option prior to hire? Do you think it is a good idea, 
and, if so, why?
    Mr. Amador. No. I think it is a terrible idea. I have had 
an E-Verify check. I know Tracy Hung had issues. But I didn't 
pass the self-check, so maybe that is why I opposed it.
    No, it is a two-step process. It is not--when people say 
you got to do a self-check, it is not just doing E-Verify. You 
have got to pass through a process that is not based on any 
government database; it is based on credit report. And my 
credit report has my name misspelled four different ways, and 
that was the options that it gave me to choose from, and I 
chose ``none of the above'' because I knew my name was 
misspelled. In that case--and counsel told me to bring my 
passport just in case they asked for another check.
    But--so once that happened, it doesn't let you go forward. 
You are never able to do E-Verify. The way I fixed it is I was 
able to pick up the phone and call Alan Mayorcas, who runs a 
great agency, and he assigned somebody with me, and it took 
them 3 months to explain to me what was it that went wrong.
    So asking somebody to do a self-check is completely 
different than asking somebody to do an E-Verify check, and if 
they are young and don't have enough credit history, if their 
credit report is full of errors, or if you do not remember who 
had your first mortgage at what bank that was sold three times, 
you might never get through E-Verify. So for that reason I 
don't think it should be required.
    It is something to encourage people to do so they have that 
peace of mind when they go and apply for a job that, you know, 
they are not going to encounter any problems, but it shouldn't 
be require, because, again, if it is not based on the 
government database, the security provisions that it has in 
place are based on credit reports and is not, in my view, 
accurate enough, from personal experience.
    Mr. Gowdy. Thank you.
    Mr. Mondi, I don't have a question, but I do want you to 
know that I--some of my better friends back in Spartanburg, 
South Carolina, are in the landscaping and nursery business. 
When they allow me into Sunday school, I sit beside one of the 
largest landscapers and nursery owners.
    I have never served in the statehouse in South Carolina. I 
think E-Verify is mandatory in South Carolina. And so I 
appreciate the work that your constituents, if you will, do. 
And they are some of the better people that I know in my 
hometown, and they are wonderful employers, and they make a 
huge contribution to our community.
    So, with that, and for each of you, this concludes our 
hearing, and I want to thank you on behalf of everyone on both 
sides, and especially our Chairman, Mr. Goodlatte, and my 
Ranking Member, Ms. Lofgren, for your very informative 
testimony and asking good questions, your collegiality toward 
one another and with the Committee.
    Without objection, all Members will have 5 legislative days 
to submit additional questions, written questions, for the 
witnesses or additional materials for the record.
    This hearing is adjourned. We are going to take a brief 
recess and then proceed to a hearing on H.R. 1773, which is the 
Agricultural Guestworker Act.
    With that, this hearing is adjourned, and thank you all for 
your testimony.
    [Whereupon, at 11:58 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Bob Goodlatte, a Representative in 
  Congress from the State of Virginia, and Chairman, Committee on the 
                               Judiciary

    Thank you Chairman Gowdy. And thank you Mr. Smith for your work on 
this legislation.
    The future of immigration reform hinges on assuring the American 
people that our immigration laws will be enforced. In the past, 
Americans were promised tougher enforcement in exchange for the 
legalization of those unlawfully in the U.S. Succeeding Administrations 
never kept these promises and today we are left with a broken 
immigration system.
    One way to make sure we discourage illegal immigration in the 
future is to prevent unlawful immigrants from getting jobs in the U.S. 
Requiring the use of E-Verify by all employers across the country will 
help do just that. The web-based program is a reliable and fast way for 
employers to electronically check the work eligibility of newly hired 
employees.
    H.R. 1772, the ``Legal Workforce Act,'' builds on E-Verify's 
success and helps ensure the strong enforcement that was promised to 
the American people many years ago.
    The Legal Workforce Act doesn't simply leave enforcement up to the 
federal government.
    In fact, it actually empowers states to help enforce the law, 
ensuring that we don't continue the enforcement mistakes of the past 
where a President can `turn-off' federal enforcement efforts 
unilaterally.
    Over 450,000 employers are currently signed up to use E-Verify. It 
is easy for employers to use and is effective. In fact as USICS 
testified in front of this Subcommittee this past February, E-verify's 
accuracy rate for confirmation of work eligibility is 99.7 percent.
    But the system is not perfect. For instance, in cases of identity 
theft, when an individual submits stolen identity documents and 
information, E-Verify may confirm the work eligibility of that 
individual.
    This happens because E-Verify uses a Social Security Number (SSN) 
or alien identification number and certain other corresponding 
identifying information such as the name and date of birth of an 
individual, to determine if the SSN or alien identification number 
associated with that corresponding information is work eligible. Thus 
if an individual uses a stolen SSN and the real name corresponding with 
that SSN, a false positive result could occur.
    The Legal Workforce Act addresses identity theft in several ways. 
First, it requires notification to employees who submit for E-Verify a 
SSN that shows a pattern of unusual multiple use. So the rightful owner 
of the SSN will know that their SSN may have been compromised.
    And once they confirm this, DHS and SSA must ``lock'' that SSN so 
no one else can use it for employment eligibility purposes.
    The bill also creates a program through which parents or legal 
guardians can ``lock'' the SSNs of their minor children for work 
eligibility purposes. This is to combat the rise in the number of 
thefts of children's identities.
    But there are other changes that should also be made. For instance, 
in order to help prevent identity theft, USCIS created and utilizes the 
photo-match tool in which photos from greencards, work authorization 
documents and passports can be seen during the use of E-verify in order 
to help ensure that the person submitting the identity document is in 
fact the person who owns that document. But I recently learned that 
USCIS materials regarding the use of E-Verify specifically state that 
``A photo displayed in E-Verify should be compared with the photo in 
the document that the employee has presented and not with the face of 
the employee.''
    What good is the photo match tool to prevent identity theft if the 
employer is prohibited from matching the photos to the person 
submitting the identity document? This policy is ludicrous and we will 
look to address it as this legislation moves forward.
    The bill also phases-in E-Verify use in six month increments 
beginning with the largest U.S. businesses, raises penalties for 
employers who don't use E-Verify according to the requirements, allows 
employers to use E-Verify prior to the date they hire an employee and 
provides meaningful safe harbors for employers who use the system in 
good faith.
    H.R. 1772 balances the needs of the American people regarding 
immigration enforcement with the needs of the business community 
regarding a fair and workable electronic employment verification 
system.
    While I want to continue working with the business community and 
other stakeholders to address any additional concerns with the bill, I 
am pleased to be an original cosponsor and look forward to the 
testimony of the witnesses today.
    Thank you Mr. Chairman and I yield back the balance of my time.



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
